SUPPLEMENTAL APPENDIX

1a
SUPPLEMENTAL APPENDIX A
IN THE CIRCUIT COURT OF
COOK COUNTY COUNTY DEPARTMENT,
LAW DIVISION
[Filed January 23, 2006]
————
No. 05 L 050792
Parcel BC-1
————
CITY OF CHICAGO,
v.

Plaintiff,

FRED J. EYCHANER and UNKNOWN OWNERS,
Defendants.
————
TRAVERSE
Defendant Fred J. Eychaner, by DLA Piper Rudnick
Gray Cary US LLP, his attorneys traverses the allegations of the Complaint for Condemnation of the City
of Chicagoan that the City is without authority to
file said Complaint or take the subject property
via eminent domain. In support of this Traverse,
defendant states:
1. On January 10, 2001, the City of Chicago (the
“City”) designated defendant’s property for acquisition
herein as part of the River West Tax Increment
Financing Redevelopment Project pursuant to 65
ILCS 5/11-74.4-1 et seq., the Tax Increment Allocation
Redevelopment Act (the “Act”).
2. The City adopted an ordinance on June 19, 2002
authorizing the acquisition of defendant’s property
through the power of eminent domain.

2a
3. The City’s June 19, 2002 ordinance of acquisition was based on the City’s January 10, 2001
ordinance of designation.
4. The City’s June 19, 2002 ordinance of acquisition purported to find the taking of defendant’s property to be “necessary and required” for the public
purpose of improving a “commercially blighted area.”
5. However, the city’s January 10, 2001 ordinance
of designation did not find the River West Tax Increment Financing Redevelopment Project Area to be
a “commercially blighted area.” The City’s January
10, 2001 ordinance of designation did not find the
River West Tax Increment Financing Redevelopment
Project Area to be blighted at all. Instead, the City’s
January 10, 2001 ordinance of designation found the
River West Tax Increment Financing Redevelopment
Project Area to be a “conservation area” under the Act.
6. The River West Tax Increment Financing
Redevelopment Project Area did not and does not
meet the Act’s definition of a blighted area, and the
eligibility study approved by the Chicago City Council
only found the River West Tax Increment Financing
Redevelopment Project Area to be a “conservation
area” under the Act.
7. The public purpose for which the City is
attempting to use the power of eminent domain herein
is not to clear slums or eliminate blight, but for economic redevelopment.
8. The City of Chicago is attempting to take
defendant’s property by the power of eminent domain
in order to convey the property to another, favored
developer.
9. The City’s use of eminent domain to take
defendants’ property does not satisfy constitutional

3a
requirements. Specifically, the City intends to transfer
defendant’s property to another private entity for that
private entity’s personal profit. The City’s intended
use is neither a proper public use nor a proper public
purpose under the law, and, therefore, the taking of
the defendant’s property violates the 5th and 14th
Amendments to the United States Constitution and
Article I, Section 15 of the Illinois Constitution of
1970:
A. The City intends to transfer the property
after the taking to a private entity to be used for a
private purpose and private use.
B. The proposed use confers a benefit merely
an individual, private entity as opposed to the
community at large.
C. No law controls the proposed private use to
be made of the property after its taking by the
City and transfer to a private entity.
D. The public will not reap the benefit of public
possession of the property and a private entity
will exercise control over the property and not the
municipality.
E. The public will not be entitled to use the
property, not as a mere favor or by permission of
the owner, but by right.
10. The taking of the defendant’s property by the
City is not the least restrictive means consistent with
the attainment of the City’s goals, and therefore the
taking of the defendant’s property by the City violates
the 5th and 14th Amendments to the United States
Constitution and Article I, Sections 2 and 15 of the
Illinois Constitution of 1970.
WHEREFORE, defendant Fred J. Eychaner
traverses the Complaint for Condemnation and moves

4a
this Court to dismiss the complaint with prejudice and
to assess attorneys’ fees and costs against plaintiff
pursuant to 735 ILCS 5/7-123.
FRED J. EYCHANER
By: /s/ Thomas F. Geselbracht]
One of His Attorneys
Thomas F. Geselbracht
Karen S. Way
DLA PIPER RUDNICK GRAY CARY US LLP #41519
203 North LaSalle Street
Suite 1800
Chicago, Illinois 60601
(312) 368-4094/2152
STATE OF ILLINOIS
COUNTY OF COOK

)
) SS
)

CERTIFICATE OF SERVICE
I, Thomas F. Geselbracht, an attorney, hereby
certify that I caused the foregoing TRAVERSE to be
served upon:
Rick Taylor
Assistant Corporation Counsel
City of Chicago
Suite 1610
30 No. LaSalle Street
Chicago, Illinois 60602
by depositing a copy in the United States Postal
Service mail drop at 203 North LaSalle Street,
Chicago, Illinois, addressed to the above counsel and
with proper postage pre-paid, before 5:00 p.m. this
23rd day of January, 2006.
/s/ Thomas F. Geselbracht

5a
SUPPLEMENTAL APPENDIX B
IN THE CIRCUIT COURT OF COOK COUNTY,
ILLINOIS COUNTY DEPARTMENT LAW DIVISION
————
NO. 05L 50792
PARCEL: BC-1
CALENDAR 2
————
CITY OF CHICAGO, a municipal corporation,
Plaintiff,
v.
FRED J. EYCHANER and, UNKNOWN OWNERS
Defendants.
————
PROJECT: RIVER WEST TIF CONDEMNATION
————
THE CITY OF CHICAGO’S RESPONSE TO
DEFENDANT’S TRAVERSE
NOW COMES the Plaintiff, CITY OF CHICAGO, a
municipal corporation, by and through its attorneys,
MARA S. GEORGES, Corporation Counsel, STEVEN
J. HOLLER, Chief Assistant Corporation Counsel, and
RICK TAYLOR, Assistant Corporation Counsel, and
responds to Defendant’s Traverse filed herein by
Defendant, FRED J. EYCHANER, by and through his
attorneys THOMAS F. GEISELBRACHT and KAREN
S. WAY, DLA Piper Rudnick Gray Cary UA LLP, as
follows:

6a
BACKGROUND
The City is acquiring the property commonly
known as 460 to 468 North Jefferson Street, Chicago,
IL 60608 and further identified by Property Index
Numbers 17-09-107-004-0000, 17-09-107-005-0000
and 17-09-107-006-0000 (“Property”) in the furtherance of the redevelopment of the River West Redevelopment Project Area (“Area”) pursuant to Tax
Increment Allocation Financing (‘TIF”) in accordance
with the Illinois Tax Increment Allocation Redevelopment Act, 65 [Illegible] 5/11-74.4-1, et seq. (2004) (“Act”).
The Joint Review Board established in accordance
with Section 5/11-74.4-5 (“Board”) was convened concerning the approval of the River West Tax Increment
Financing Redevelopment Plan (“Plan”), designation
of the Area, and adoption of the TIF. This Board
recommended to the Community Development Commission of the City of Chicago (“CDC”) the approval of
the Plan, designation of the Area, and adoption of Tax
Increment Financing (“TIF”). Based upon this, the
CDC, on November 14, 2000, as adopted in Resolution
00-CDC-112 (See attached as Exhibit A) recommended
to the City Council that it approve the Plan and the
other related matters.
As a function of the CDC meeting held on November
14, 2000, the City pursuant to Sections 5/11-74.4-4 and
5/11-74.4-5 of the Act, was required to hold a public
hearing concerning the approval of the Plan, the
designation of the Area as a “redevelopment area”
pursuant to the Act, and the adoption of the TIF
within the Area all pursuant to the Act. The Plan and
all eligible reports had previously been made available
to the public for inspection and review in advance of
such public meeting in accordance with requirements
under the Act beginning September 26, 2000.

7a
In accordance with Section 5/11-74.4-6 of the Act,
notice of the hearing was given to all taxing districts
having property within the Area and the Department
of Commerce and Community Affairs of the State of
Illinois by certified mail on August 2, 2000. Also,
notice was given to the taxpayers within the area by
certified mail on August 7, 2000. Publication notice of
the hearing was published in the Chicago Sun-Times
and Chicago Tribune on October 16, 2000 and October
23, 2000.
After the CDC’s passage of Resolution 00-CDC-112
City Council on January 10, 2001, passed separate
ordinances approving the Plan (Journal of Proceedings
of the City Council “J.O.P.” pages 49901 to 49982, see
Exhibit B), designating the area for redevelopment
(J.O.P. pages 49983 to 49990, see Exhibit B) and
adopting the use of TIF to finance redevelopment costs
(J.O.P. pages 49991 to 49998, see Exhibit B).
The City Council found that in accordance with the
Act, the area on a whole has not been subject to
growth and development through investment by private enterprise and would not be expected to be
developed without adoption of the Plan. Additionally,
in compliance with Section 5/11-74.4-4 (c) of the Act,
and in accordance with the Plan, the City Council
authorized the Corporation Counsel to negotiate on
behalf of the City for the acquisition of the certain
parcels contained within the Area, and if negotiations
were not successful, institute eminent domain proceedings to acquire such parcels.
On June 19, 2002, the City Council adopted an
ordinance which authorized the acquisition of the
subject property in accordance with the River West
Redevelopment Plan because the acquisition is
necessary and required for the home rule public

8a
purpose of improving a commercially blighted area
(See Exhibit C).
As a premise to the Plaintiffs response, it is
important to note that in accordance with §7-102 of the
Eminent Domain Act, there is a duty on a sanctioned
condemning public body to follow certain necessary
procedures when condemning property within the
State of Illinois (735 ILCS 5/7-102 (2002)). A condemnee can challenge the condemnor’s motives or
necessity of the taking on various grounds which
indicate that the condemning party has violated those
requirements. Therefore, if for some reason a party
challenges a condemning body’s right to condemn, the
condemning body by competent prima facie evidence
shifts the burden to the Defendant by showing proof of
its right to condemn (Lake County Forest Preserve v
First National Bank of Waukegan, 154 Ill.App. 3d 45,
506 NE2d 424 (1987)).
With the aforementioned being stated by the City,
this Court should deny the Defendant’s Traverse for
the following reasons. As prima fade evidence, the City
has provided valid ordinances and resolutions which
authorize the City to acquire the parcels in order to
further the redevelopment purposes in the TIF Act
and Plan. Within the Ordinances and in accordance
with the Plan, the City Council authorized the
acquisition of the Property for the necessary public
purpose of advancing the redevelopment goals and
objectives of the Act and the Plan in redeveloping an
area that qualified as a “conservation area” under the
Act (See Exhibit A).
THE CITY’S AUTHORITY
First and foremost, the City is a home rule unit of
government by virtue of the provisions of the

9a
Constitution of the State of Illinois of 1970 and as such
it may exercise any power or perform any function
pertaining to its government and affairs. One such
function is to acquire real property by condemnation
at the CDC’s recommendation pursuant to Chapter 2124-030 of the Municipal Code of the City of
Chicago(“Code”). Chapter 2-1240-010(f) defines a
“redevelopment area” as “a slum, blighted, deteriorated or deterioration area” where certain conditions
are present and provides that as long as an area is
approved as a redevelopment area pursuant to a
redevelopment plan, the City has authority to exercise
eminent domain in such area.
The Plan found that it was necessary to redevelop
and designate the Area as a “conservation area” to
prevent blighted conditions to the Area’s industrial
and commercial district and to conserve existing
businesses and industry in the Area. The City further
found that the Plan met the statutory requirements
for a “conservation area” and could be designated as a
“redevelopment project area” under the Illinois Tax
Increment Allocation Redevelopment Act (J.O.P.
pages 49907, January 10, 2001)).
This Court and other Illinois Courts have recognized
that where a corporate authority has passed resolutions and ordinances in accordance with its authority
to use eminent domain as a tool to acquire property, it
has established prima facie evidence of its authority.
See City of Chicago v Walker, 50 Ill.2d 69, 71, 277
NE2d 129, 130 (1972), School Trustees v Sherman
Heights Corp., 201112d 357, 359, 169 NE2d 800, 802
(1960) and Village of Wheeling v Exchange National
Bank of Chicago, 213 Ill.App.3d 325, 572 NE2d. 966
(1991). In Village of Wheeling, where the Village was
seeking to acquire property pursuant to a TIF Rede-

10a
velopment Plan, the Court found that the Village’s use
of eminent domain was based upon the classification
of the land as a blighted and a conservation area and,
therefore, the Village established a prima fade case for
condemnation (Id. 331)(emphasis added). Accordingly,
where the ordinances and resolutions establish the
right to acquire the property, this Court cannot and
should not substitute its judgment or rethink the
legislatures’s judgment in passing said ordinances or
resolutions. As such, the Court must uphold the legislation unless there is no conceivable basis for
legislative judgment or findings.
The City has made a prima facie case in establishing
it’s authority to acquire the subject property by submitting the enabling ordinances which show that the
taking is necessary and pursuant to public purposes.
As such, the City has established by prima facie
evidence its right to acquire and the burden shifts
to the Defendant to show there was an abuse of
discretion by the corporate body. Lake County Forest
Preserve District v First National Bank of Waukegan,
154 Ill.App.3d 45, 506 NE2d 424 (1987).
ISSUES PRESENTED
1. Whether the Ordinance dated January 10, 2001
designating the Area as a “Conservation Area” and the
Ordinance dated June 19, 2002 authorizing the
acquisition of the subject property which states
that the acquisitions of the three(3) desired parcels is
because the properties are in a “Commercially
Blighted Area” negates the City’s necessity and public
purpose of acquiring the subject property in the
furtherance of the Redevelopment Plan.
2. Whether the City’s use of eminent domain to
acquire the subject property and the eventual

11a
conveyance to a private entity is not a proper public
purpose as allowed pursuant to the Eminent Domain
Act.
3. Whether the City’s use of eminent domain to
acquire the subject property and the eventual conveyance to a private entity is not a proper public use as
allowed pursuant to the Eminent Domain Act.
4. Whether the taking of the Subject property by
the City pursuant to the Eminent Domain Act as a
necessary and appropriate taking violate the 5th and
14th Amendments of the United States Constitution
and Article 1, Section 2 and 15 of the Illinois Constitution of 1970.
PLAINTIFF’S RESPONSES
The Defendant raises four (4) issues which the
Defendant believes support its request to this Court
that it should grant a traverse and conclude that this
matter should be dismissed. Many of issues raised by
the Defendant do not meet the sufficiency test of
providing clear and convincing evidence to establish
grounds for traverse because most of the arguments
are not supported by any factual evidence nor are the
arguments based upon existing statutory and/or case
law governing eminent domain matters. Nonetheless,
the City will address each of arguments posed by the
Defendant.
I. The authority approved and adopted by the City
Council in the January 10, 2001 Ordinance as
to the purpose for acquiring the property within
the designated “Conservation Area” clearly
indicates its public purpose for acquisition.
The Defendant alleges that the City does not have
the authority to acquire because the January 10, 2001

12a
Ordinance authorizing acquisitions of parcels within
the River West Area refers to the redevelopment area
as a “conservation area” while the June 19, 2002
Ordinance authorizing the acquisition parcels in
question refers to the redevelopment area as a “commercially blighted area”. Defendant gives extreme
and undue weight to this linguistic distraction. This is
unwarranted because, under both the Municipal Code
and the Act, a redevelopment area is a redevelopment
area.
Section 65 ILCs 1-74.4-3(n) of the Tax Increment
Allocation Redevelopment Act (“Act”) states in
pertinent part:
“Redevelopment plan” means the comprehensive program of the municipality for development or redevelopment intended by the payment of redevelopment project costs to reduce
or eliminate those conditions the existence of
which qualified the redevelopment project
areas as a “blighted area” or “conservation
area” or combination thereof or “industrial
park conservation area . . .”
Additionally, the “Act” in Section 65 ILCS 5/11-74.42(b), states in pertinent part:
“It is hereby found and declared that in order
to promote and protect the health safety,
morals, and welfare of the public, that
blighted conditions need to be eradicated and
conservation measures instituted, and that
redevelopment of such areas be undertaken;
that to remove and alleviate adverse conditions it is necessary to encourage private
investment and restore and enhance the tax
base of the taxing districts in such areas by

13a
the development or redevelopment of project
areas. The eradication of blighted areas and
treatment and improvement of conservation
areas and industrial park conservation areas
by redevelopment projects is hereby declared
to be essential to the public interest.
[Emphasis Added]”
It is clear from the language used by the state legislature in the creation of the Act, that regardless of
whether the purpose for acquisition is to eliminate
blighted conditions or to prevent blight in a conservation area, both such acquisitions serve a essential
public purpose. No Illinois Court has ever said a
municipality has any different acquisition or condemnation powers in an area that qualifies as a “conservation area” under the TIF Act than in an area that
qualifies as a “blighted area” under the TIF Act. The
TIF Act itself expressly recognizes both are redevelopment areas on equal footing, defining “redevelopment project area” as “an area designated by a
municipality . . . in respect to which municipality
has made a finding that there exists conditions which
cause the area to be classified as . . . a blighted area
or conservation area.” 65 ILCS 5/11-74.4-3(p).
Defendant asks this Court to focus solely on three
words and to ignore the Municipal Code, TIF Act, the
CDC Resolution, the Plan and the City’s three 2001
Ordinances all of which clearly establish the public
purpose for the taking and the Area’s “redevelopment
project area” status in the June 19, 2002 Acquisition
Ordinance. To focus on three words and to ignore all
such prior approvals or findings would be inappropriate.
At worst the use of the phrase “commercial blighted
area” is a scrivener’s error. This phrase does not

14a
appear in the TIF Act, but is found in a parallel
redevelopment Statute, 65 ILCS 5/11-74.2, et seq. that
appears in the Municipal Code Section of Illinois
Compiled Statutes. Also, the idea that because of the
perceived ambiguity, the City Council in approving
the June 19, 2002 Ordinance was doing so under the
mistaken premise that the property was located only
in a blighted area. To accept this premise as a valid
argument would be the furtherest from the intent and
purpose of the City Council when it adopted the TIF
Plan in January 10, 2001: Section 5 of the 2001
Ordinance makes clear that derives from the City’s
authority and purpose for the taking in “Section
5/11-74.4-4 ( c ) of the Act and the Plan, pursuant to
which the Corporation Counsel is authorized to negotiate for the acquisition by the City of parcels
contained within the Area . . . [Emphasis added}”
(J.O.P., January 10, 2001, page 49905). This Ordinance clearly indicates the City’s intent and purpose
for the acquisition. For example, in contrast, the June
19, 2002, Ordinance identifies in particular those
parcels to be acquired in accordance with the approved
Plan. There was no language used that either
amended the Plan or the Area designation. On the
contrary, the June 19, 2002 Ordinance was adopted to
compliment the Plan or in addition to the Plan. The
use of the term “commercially blighted area” does not
in any way change the intent of the City Council when
it adopted the TIF Plan. Additionally, the proper
analysis of the ordinances must be that the June 19,
2002 Ordinance be incorporated into the January 10,
2001 Ordinance. As a result of this incorporation, the
City’s intent for acquisition becomes clearer and in no
way does the perceived ambiguity conflict with the
City’s purpose and necessity of acquisition.

15a
II. The City’s use of eminent domain to acquire
property in furtherance of the redevelopment
of a statutory redevelopment project area is
an acceptable public purpose for acquisition,
regardless of whether such area is a “blighted
area” or a “conservation area”.
The Defendant alleges that because the Area is not
a designated “blighted area,” the use of eminent
domain is not to clear slum or eliminate blight and,
therefore, should not be allowed. The City could not
disagree morel Illinois, Courts have long recognized
the use of eminent domain as an acquisition tool that
a municipality may use, along with TIF assistance, in
redeveloping statutory TIF redevelopment project
areas. This is true regardless of whether the TIF
area is designated as blighted area, a conservation
area, some combination of both a blighted area and
conservation area, or an industrial park conservation
area, Board of Education, Pleasantdale School District
No. 107, Cook County, 341 Ill.App.3d 1004, 793 N.E.
2d 856, 276 Ill. Dec. 97 (2003). Under the TIF Act the
designation of an area as a conservation area is to
prevent further blight to that area designated by a
municipality . . . in respect of which the municipality
has made a finding that there exist conditions which
cause the area to be qualified as an industrial park
conservation area, or a blighted area or conservation
area or a combination of both blighted areas and
conservation areas.” 65 ILCS 5/11-74.4-3(p). Although
there are different designation requirements for these
different types of redevelopment project areas, once
such requirements are satisfied, and a redevelopment
project area has been designated, the TIF Act makes
no distinction whatsoever as to a municipality’s ability
to exercise its eminent domain powers or, to provide

16a
TIF assistance in connection with the redevelopment
of such redevelopment project areas.
Under 65 ILCS 5/11-74.4-3 the designation requirements for blighted areas and conservation areas are
spelled out, and such tests are very similar. “Blighted
area” designation requires a finding of 5 or more
statutory blighting factors. 65 ILCS 5/11-74.4-3(a).
“Conservation area” designation, as to any improved
area, requires a finding of 3 or more of the same
statutory blighting factors, plus a finding that 50% or
more of the structures in the area have an age of 35
years of age or more. As a result of the presence of such
factors, the Illinois legislature has decreed that such
an area “is not yet a blighted area but because of a
combination of such . . . factors is detrimental to the
public safety, health, morals or welfare and such area
may become a blighted area.” (65 ILCS 5/11-74.4-3(b)
(2004)) Thus, designation of a “conservation area” is
in the nature of a preventive strike by the municipality
to avert a further downturn in an area’s condition.
But once designated, it is a full-fledged “redevelopment project area,” having the same rights and powers
as a “blighted area.” The TIF Act makes clear that
such rights and powers include the municipality’s
right “[w]ithin a redevelopment project area, [to]
acquire . . . by eminent domain . . . land and other
property . . . in the manner and at such price the
municipality determines is reasonably necessary to
achieve the redevelopment objectives of the plan and
project.” 65 ILCS 5/11-74.4.4( c ). Illinois Courts have
repeatedly recognized the acquisition of parcels in a
“conservation area” as an acceptable public purpose.
City of Carbondale ex rel. Ham v Eckert, 76 Ill.App.3d
881, 395 N.E. 2d 607, 32 Ill.Dec. 377 (1979), County
Collector v D.R.G. Inc., 63 Ill.App.3d 506, 377 N.E.2d
1230, 18 Ill.Dec. 594 (1978), City of Dekalb v Anderson,

17a
43, Ill.App.3d 915, 357 N.E.2d 837, 2 Ill.Dec. 617
(1976), La Salle National Bank v City of Chicago,
6 Ill.App3d 306, 285 N.E.2d 465 (1972), Chicago Title
and Trust Co. v City of Chicago, 130 Ill.App.2d 45, 264
N.E. 2d 730 (1970), Guaranty Bank & Trust Company
v City of Chicago, 112 Ill.App.2d 378, 251 N.E. 2d 384
(1969), City of Chicago v Zwick Co., 27 Ill.2d 128, 188
N.E. 2d 489 (1963), City of Chicago v Central National
Bank of Chicago, 5 Ill.2d 164, 125 N.E.2d 94 (1955)
and People ex rel. Gutknecht v City of Chicago, 3 Ill.2d
539, 121 N.E.2d 791(1954).
The public purposes and benefits realized from the
redevelopment of redevelopment project areas are
described at great length at the beginning of the TIF
Act., 65 ILCS 5/11-74.4-2. Such subsection states
that such purposes are the “removal of and to alleviate
adverse conditions”,” to encourage private investment,” to “restore and enhance the tax base of the
taxing district,” the “eradication of blighted areas and
treatment and improvement of conservation areas,” all
of which are expressly “declared to be essential to the
public interest.” 65 ILCS 5/11-74.4-2(c); see also People
ex rel. City of Canton, 79 Ill.2d at 360, 38 Ill.Dec. 154,
403 N.E.2d 242 (1980); Castel Properties, Ltd. v. City
of Marion, 259 Ill.App.3d 432, 433-34, 197 Ill.Dec.
456, 631 N.E.2d 459 (1994 Board of Education of
Community High School District No. 218 v. Village of
Robbins, 327 Ill.App.3d 599, 602, 262 Ill.Dec. 312, 765
N.E.2d 449 (2001).
The above cases all held that the acquisition of
parcels [in a blighted area] pursuant to the TIF Act
was a necessary and appropriate municipal action in
the furtherance of the redevelopment project area in
question and as such, was for an acceptable public
purpose Additionally, the Courts have upheld the

18a
acquisition of properties designated in “conservation
areas” pursuant to Section 74.4-3(n) of the TIF Act.
The Court in City of Chicago v Boulevard Bank
National Association, 293 Ill.App.3d 767, 688 N.E.2d
844, 228 Ill.Dec. 146, (1997), which involved a challenge to the City of Chicago’s authority to acquire
the Oliver Building pursuant to the TIF Act in the
furtherance of North Loop Redevelopment Plan.
There, the Court upheld the validity of 65 ILCS 5/1174.4-3(n), which states a municipality has established
a redevelopment plan for rehabilitation of an area to
reduce or eliminate the blighted area or conservation
area existence that area qualifies as a redevelopment
project area (Id. at 772,773).
Acquisition pursuant to the area designation as a
“conservation area” accomplished in accordance with
the Plan provides the City with all the necessary
legislative authority and purpose for acquisition to the
same extent as a “blighted area” designation. Because
the River West Area qualifies as a “conservation area”,
the City’s, acquisition of Defendant’s parcel serves as
an acceptable public purpose. Defendant has not
presented any case law or legislative findings to
support its contention that the “conservation areas”
and “blighted areas” are on a different footing, because
no such law or findings exist.
III. The City’s proposed conveyance of the Defendant’s property to a private party does not negate
the public purpose use that justifies the taking.
The Defendant contends that the City’s proposed
transfer of the condemned property to a private entity
is not an acceptable public use of the property.
Additionally, the Defendant contends that the public
will not benefit or be able to use the property and only

19a
the eventual private entity will receive the benefit
from this acquisition.
The City disagrees in that the public will benefit
from this redevelopment project because of the preservation of exiting jobs, the creation of 40 to 60 higher
paying industrial jobs and the increase in its tax base
for providing City services is a public use consistent
with the Plan.
The Illinois Legislature has addressed the issue
of what is the public benefit that can be derived
from governmental actions done for public purposes.
Section 20 ILCS 620/2, Legislative declaration of public purpose, states in pertinent parts:
Section 2. Legislative declaration of public
purpose, the General Assembly hereby finds,
determines and declares:
(a) that the loss of job opportunities for the
residents of the State is a serious menace to
the health, safety, morals and general welfare
of the people of the entire state;
(b) that a vigorous, growing economy is a
basic source of job opportunities;
(c) that protection against the economic
burdens associated with the loss of job opportunities, the consequent spread of economic
stagnation and the resulting harm to the tax
base can be best provided by promoting,
attracting, stimulating, retaining and revitalizing industry, manufacturing, and commerce
within the State; (h) that the provision of
such additional incentives by the State and
its political subdivisions will relieve conditions of unemployment, maintain existing

20a
levels of employment, create new job opportunities, retain jobs within the State, increase
industry and commerce within the State,
thereby creating job opportunities for the
residents of the State and reducing the evils
attendant upon unemployment, and increase
the tax base of the State and its political
subdivisions.
It is hereby declared to be the policy of the
State, in the interest of promoting the health,
safety, morals and general welfare of all the
people of the State, to provide incentives
which create new job opportunities and retain
existing commercial businesses and industrial and manufacturing facilities within the
State and related job opportunities, and it is
further determined and declared that the
relief of conditions of unemployment, the
maintenance of existing levels of employment, the creation of new job opportunities,
the retention of existing commercial business
and industrial and manufacturing facilities
within the State and related job opportunities, the increase of industry and commerce
within the State, the reduction of the evils
attendant upon unemployment, and the
increase and maintenance of the tax base of
the State and its political subdivision are
public purposes and for the safety, benefit,
and welfare of the residents of this State.
[Emphasis added] 20 ILCS 620/2 et seq.
It is clear from this statute that when the State or a
municipality takes initiative for economic development purposes under the guise of public purpose, the
legislature has clearly indicated that the public will

21a
benefit from that public use to preserve jobs and
industry, increase the tax base, and create new jobs for
the community.
The form of Redevelopment Agreement between the
City and Blommer Chocolate Company (“Blommer)
that was approved by the City Council on February 8,
2006, contemplates that the City will convey the
Defendant’s acquired properties to Blommer for redevelopment in the furtherance of the Plan’s goals and
objectives. Blommer has already begun to rehabilitate
and expand its existing chocolate manufacturing
business, to create 40 to 60 additional manufacturing
jobs, and retain the existing manufacturing jobs
(J.O.P., February 8, 2006, pages 69121 to 69213).
Creation and retention of manufacturing jobs is
critical to the City at a time when a number of longtime confectioners, such as Brachs and Fannie Mae, in
the City have shuttered their doors and moved
operations out-of-state or to foreign locations. The
City’s actions to preserve and expand the business of
Blommer here in Illinois meets the criteria for public
use pursuant to the public purpose declaration of the
Illinois General Assembly, Section 20 ILCS 620/2 et
seq. (2004).
Illinois Courts on numerous occasions cases upheld
the action of the condemning body where the condemnation of private property was for a private
redevelopment and use. In Chicago, many of the
redevelopment projects beginning in the 60’s up to the
present were for purposes and uses of private entities.
The revitalization of the Central Loop Area is a direct
result of acquisitions that were eventually redeveloped
by a private entity.

22a
In Chicago v Boulevard National Bank Association,
293 Ill.App. 3d 767, 688 N.E. 2d 844, 288 Ill.Dec. 146
(1997) the Defendant contended that the City should
not be allowed to acquire the Oliver Building as part
of an assemblage site with the Oriental Theater, all of
which was to be redeveloped by a private entity. The
Court upheld the taking and the use of TIF funds to
have a private entity redevelop properties in accordance with the North Loop TIF Act.
Additionally, Illinois Courts have otherwise held
that where the property to be taken is to be for “public
use”, that public use can mean public usefulness,
utility, advantage or benefit, as compared to strict,
actual usage. It is not essential that the entire
community receive or share the benefit. The use can
be confined to a particular district and still be public
(People ex rel Tuohy v City of Chicago, 394 Ill. 477, 483,
68 N.E.2d 761 at 483)(See also Berman v Parker, 348
U.S. 26 (1954).
More recently, the Illinois Supreme Court addressed
this issue of public use in Southwestern Illinois
Development Authority v National City Environmental, L.L.C., 199 Ill.2d 225, 768 N.E.2d 1. 263 Ill.Dec.
241 (2002). (“SWIDA”). In SWIDA, the Court reviewed
whether the taking of private property by a governmental body for conveyance to another private entity
satisfied the public use requirement. The SWIDA
court stated that “[c]learly, the taking of slum and
blighted areas is permitted for the purposes of
clearance and redevelopment, regardless of the subsequent use of the property” Id. at 238.
In the matter before this Court, the public purposes
being advanced are those enumerated in the TIF Act
and the River West Plan--the institution of conservation measures to prevent blight, the creation and

23a
retention of jobs, and the bolstering of the City’s tax
base. Such public purposes satisfy the public use
requirement.
IV. The intended conveyance to a private entity
done in accordance with the Redevelopment
Plan and in accordance with the TIF Act does
not violate the 5th and 14th Amendment of the
U.S. Constitution and Article 1, Section 2 and
15 of the Illinois Constitution.
The Defendant alleges that the City’s use of eminent
domain to acquire the Defendant’s property for the
eventual conveyance to Blommer violates the 5th and
14th Amendment of the U.S. Constitution and Article
1, Section 2 and 15 of the Illinois Constitution. The
City disagrees because the existing Federal and State
laws as well as Court findings support the type of
taking and purpose for the taking that the City is
using to acquire the subject property. Although the
Courts have touched on takings for economic purposes,
the City’s efforts are consistent and in accordance with
the TIF Act, the Eminent Domain Act and the U.S.
Constitution.
The City addressed its authority to take for the
stated public use and public purpose in responses II
and III above. Within these responses, it cited to legal
authority it possesses to acquire the subject property.
Defendant in its Traverse does not provide any factual
or legal reason for its objection. Defendant’s basis for
objection is that the taking is purely for a private
purpose and not for the rehabilitation of conservation
areas or blighted area as provided for pursuant to
Illinois Law.
The 5th Amendment of the U.S. Constitution states
that private property shall not be taken for public

24a
use, without just compensation. Neither Federal or
State law have limited public use taking to be that
exclusively for public development as a school or other
government facility. The Federal Courts have upheld
this premise of allowing taking by a governmental
entity for the eventual use by a private entity in
Berman where the Court held that the use of
condemnation for acquiring the property from one
private entity for the benefit of another private entity
where the taking was in conjunction with a comprehensive redevelopment plan of the governmental
acquiring entity and not that of the end user. Id at 33.
Also the Court went further in Hawaii Housing
Authority v Midkiff, 467 U.S. 299, 81 L.Ed 2d 186, 104
S.Ct. 2321 (1984) when it held that the exercise of
eminent domain power is related to a conceivable
public purpose especially when the land did not
remain with the government but was transferred to a
private entity.
Most recently, the U.S. Supreme Court in Kelo v
City of New London, 125 S.Ct. 2655, 162 L.Ed.2d
439,(2005) where the City of New London, Connecticut
approved a redevelopment plan to create in excess of
1000 jobs to increase the tax and other revenue and
revitalize an economically distressed city by acquiring
property to later be conveyed to Pfizer Pharmaceuticals for redevelopment, found that the proposed use
was a public use under the Taking Clause of the U.S.
Constitution. The Court held that the taking qualifies
as public use pursuant to the 5th Amendment,
economic development is an acceptable government
function, and there is no clear way to distinguish
economic development from public purpose. The
majority in Kelo upheld the premise that the State
legislature finding of purpose is a legitimate determination for the authorization of the use of eminent

25a
domain for economic development, a certain finding of
public benefit to the public is not necessary and the
courts review of the legislative intent is very narrow.
Therefore, if the condemning body’s effort to use
condemnation is consistent with the laws of the state
where the condemnor is located and in accordance
with an approved redevelopment plan, the taking does
not violate existing State or Federal laws. As recited
earlier in this brief, the City has established its prima
fade authority and purpose to condemn in accordance
with the TIF Act and its home rule authority by
presenting to the Court a certified copy of the
Ordinance authorizing the acquisition pursuant to
the Plan.
The Defendant alleges that the City’s condemnation
action violates his 14th Amendment right by depriving
him of his property. Although the Defendant makes
this blanket allegation, it is not supported in his
Traverse with any factual or legal basis the 14th
Amendment of the U.S. Constitution states that no
state shall make or enforce any law . . ., nor shall any
State deprive any person of life, liberty or property,
without due process of law. The filing of a condemnation action by the City to acquire his property by
eminent domain does not deprive him of his property
as a violation of the 14th Amendment.
Illinois Courts have upheld the position that the
filing of a condemnation action to acquire property as
part of a redevelopment initiative does not violate the
owners 14th Amendment property rights. The Court
in Towne v Town of Libertyville, 190 Ill.App. 3d, 546
N.E.2d 810, 137 Ill.Dec. 865 (1989), held that “the
decision of a condemning body to acquire property by
eminent domain is not itself a “taking of the property,
and no question of due process is presented thereby”

26a
(Id. at 568) Additionally, the Court in Towne found
that “no taking occurs until the execution of a purchase agreement or the conclusion of eminent domain
proceedings” (Id. at 568). We believe the key to
what the Court is saying that a violation of the 14th
Amendment can not occur until the condemning body
begins to exercises control over the property or it fail
to properly compensate the owner for the relinquishment of his or her rights. That is not the case in the
immediate case before this court, we are still in the
process of addressing the City’s authority to condemn.
Therefore, as long as this matter is before this Court
and the parties have not settled such matter, the
Defendant’s 14th Amendment rights to his property
have not been violated nor has he been deprived of his
due process rights to pursue any allowable action to
protect those property rights.
The Defendant fails to point to any particular
violation by the City of its efforts to acquire other than
in a general and sweeping allegation of violation of
Federal and State Laws. Defendant’s attack boils
down to his implied and not clearly stated disagreement with the City’s judgment and ultimate use
planned for the Subject Property. Finally, it is well
established that “the taking of land for redevelopment
of slum and blighted areas is a taking for a public
purpose, and the fact that a portion will be sold for
private purposes does not render the condemnation
invalid.” City v Walker, 50 Ill. 2d 69, 71 (1971-1972).
The City intends to acquire the subject property in
order to prevent further blight to the Area. Illinois
Courts have found that “the acquisition of a slum and
blight area and the removal of slum conditions is in
and of itself a public purpose regardless of the use
thereafter made of the property.” (People ex. rel

27a
Adamowski v Chicago Land Clearance Commission,
14 Ill 2d 74, 79, 150 N.E. 2d 792 (1958)). Therefore,
“. . . the acquisition of a slum and blighted area and
the removal of slum conditions is in and of itself a
public purpose regardless of the use thereafter made
of the property.” (Chicago Land Clearance Commission v White, 411 Ill. 310, 104 N.E. 2d 236, 239, (1952)).
Therefore, the City’s efforts which are consistent with
existing Federal and State Laws and consistent with
Illinois law and the findings of Illinois Courts does not
violate any protection rights alleged by the Defendant.
CONCLUSION
The City has provided this Court with its prima
facie evidence in support of its authority and necessity
of acquisition of the Subject Property pursuant to a
public purpose by providing resolutions and ordinances that approve the redevelopment in accordance
with the River West Redevelopment Plan, the designation of the Area as a conservation area and in need of
commercial conservation and the payment for this
redevelopment with TIF funds. The burden shifts to
the Defendant to show or rebut the City’s prima facie
evidence with clear and convincing evidence to the
contrary. Many of the Defendant’s arguments are
based upon conjectures and beliefs and are not
supported by clear and convincing evidence. The City
believes that the Defendant fails to meet his burden
and, therefore, the taking is proper and this action for
a traverse and motion to dismiss should be denied.
Respectfully submitted,
CITY OF CHICAGO,
a municipal corporation

28a
By: /s/ Rick Taylor
Rick Taylor
Assistant Corporation Counsel
Real Estate and Land Use Division
Attorney Number 90909
MARA S. GEORGES
CORPORATION COUNSEL
Rick Taylor
Assistant Corporation Counsel
30 North LaSalle Street
Suite 1610
Chicago, Illinois 60602
(312) 744-7377

29a
SUPPLEMENTAL APPENDIX C
IN THE CIRCUIT COURT OF COOK COUNTY,
COUNTY DEPARTMENT, LAW DIVISION
————
No. 05 L 050792
Parcel BC-1
————
CITY OF CHICAGO,
v.

Plaintiff,

FRED J. EYCHANER and UNKNOWN OWNERS,
Defendants.
————
REPLY IN SUPPORT OF TRAVERSE
Defendant Fred J. Eychaner, by DLA Piper Rudnick
Gray Cary US LLP, his attorneys, submits the following reply memorandum in support of his Traverse of
the allegations of the Complaint to Condemn of the
City of Chicago.
I. Undisputed Facts
The following facts are undisputed:
1. The subject property is a vacant parcel of 25,440
square feet at the southwest corner of Grand and
Jefferson in Chicago, Illinois. (See ¶¶ 2 and 5 of City
of Chicago Answers to Defendant’s First Set of
Interrogatories.)
2. The City of Chicago has not determined that
the subject property is blighted. (See ¶ 21 of City
of Chicago Answers to Defendant’s First Set of
Interrogatories.)

30a
3. The City of Chicago has not determined that the
subject property is a slum. (See 25 of City of Chicago
Answers to Defendant’s First Set of Interrogatories.)
4. On August 24, 2005, the City of Chicago filed the
subject eminent domain proceeding to acquire all of
the subject property. (See Complaint to Condemn; see
also ¶ 3 of City of Chicago Answers to Defendant’s
First Set of Interrogatories.)
5. ”The City will obtain title to the subject property
through the condemnation lawsuit. The property will
be sold to Blommer Chocolate Company after its
acquisition in accordance with the Redevelopment
Agreement and the Agreement for the Sale and
Redevelopment of Land between the parties pursuant
to City Council authorization.” 22(d) of City of Chicago
Answers to Defendant’s First Set of Interrogatories.)
II. Undisputed Law
A. EMINENT DOMAIN MAY NOT BE USED
TO ACQUIRE PROPERTIES MERELY FOR
ECONOMIC REDEVELOPMENT.
The Illinois Supreme Court firmly established in
Southwestern Illinois Development Authority v.
National City Environmental, LLC, 199 Ill.2d 225
(2002), that even though economic redevelopment is a
proper public purpose, the tool of eminent domain
acquisition is not available to the government unless
the public, after the taking, will have the unfettered
right to use the property. As the Illinois Supreme
Court stated in SWIDA, an increase in economic
revenues due to redevelopment cannot justify the
involuntary taking of private property:
While we do not deny that this expansion in
revenue could potentially trickle down and

31a
bring corresponding revenue increases to the
region, revenue expansion alone does not
justify an improper and unacceptable
expansion of the eminent domain power of the
government. . . . The power of eminent
domain is to be exercised with restraint, not
abandon.
199 Ill.2d at 241, 242. The SWIDA court confirmed
that the public, not a private interest, must be the
intended beneficiary of a taking (199 Ill.2d at 240), and
that the public purpose requirement and the public
use requirement, although somewhat related, are still
distinct (199 Ill.2d at 237). “The right of a sovereign to
condemn private property is limited to takings for a
public use. U.S. Const., amend. V; Ill. Const. 1970, art.
I, § 15. . .” 199 Ill.2d at 235. To satisfy the public use
requirement, something more than a mere benefit to
the public must flow from the project for which the
property taken (199 Ill.2d at 239); the public must be
able to use or enjoy the property taken, after the
condemnation, not as a mere favor or by permission of
the owner, but by right (199 Ill.2d at 238).
B. EMINENT DOMAIN MAY BE USED TO
ACQUIRE PROPERTIES IN THE ECONOMIC
REDEVELOPMENT CONTEXT TO CLEAR
SLUMS OR ELIMINATE BLIGHT.
SWIDA acknowledged an important exception to the
rule set forth above:
Clearly, the taking of slums and blighted
areas is permitted for purposes of clearance
and redevelopment, regardless of the subsequent use of the property. See, e.g., Village
of Wheeling v. Exchange National Bank of
Chicago, 213 Ill. App. 3d 325, 1991); City of

32a
Chicago v. Gorham, 80 Ill. App. 3d 496 (1980);
City of Chicago v. Walker, 50 Ill.2d 69 (1971).
199 Ill.2d at 238. Gorham was a blight-elimination
taking in which private property was replaced with
the State of Illinois building in downtown Chicago.
Walker was a slum-clearance taking in which private
property was replaced by a portion of the University of
Illinois’ Chicago Circle campus. Village of Wheeling
was a taking under the tax increment redevelopment
statute of property specifically found to be blighted.
Thus, even if property is taken for economic
redevelopment purposes from one private entity to
give it to another private entity, the taking may be
proper if the property is blighted or a slum.
III. Procedural Posture
On January 23, 2006, defendant filed his Traverse.
The City argues that the Traverse is insufficient
because it is not supported by evidence. (City Response
7, 18, 21) The City’s Response, of course, only tests the
legal sufficiency of defendant’s Traverse, and offers
certain evidence in support of the Complaint to
Condemn. To the extent that counter-evidence is necessary, defendant requests a hearing and the opportunity to present such evidence. But the Traverse
passes the test of legal sufficiency, and the City’s
response is not enough to shift the burdens to
defendant.
A traverse challenges the tight to condemn, and will
result in dismissal where the condemning agency
cannot show its right to use eminent domain upon
proper proof. Lake County Forest Preserve Dist. v. First
National Bank of Waukegan, 154 Ill. App. 3d 45, 51
(2nd Dist. 1987). The pleading requirements for a
traverse are minimal – all that is necessary is that it

33a
be clear to the court that the right to condemn is being
challenged. See City of Chicago v. Riley, 16 Ill.2d 257,
259-60 (1959); Village of Skokie v. Gianoulis, 260 Ill.
App. 3d 287, 297 (1st Dist. 1994); Forest Preserve Dist.
of Du Page County v. Miller, 339 Ill. App.3d 244, 251
(2nd Dist. 2003). Defendant’s Traverse clearly meets
those requirements here.
The City’s real point appears to be that, by filing the
ordinances underlying the acquisition, the City has
satisfied its burden in response to the Traverse.
However, the typical presumption which shifts the
burden of proof from the condemnor to the property
owner where the condemnor pleads into court an
ordinance authorizing acquisition does not apply here.
The June 19, 2002 ordinance authorizing the acquisition of the subject property by the City of Chicago is
both internally inconsistent and inconsistent with the
City’s sworn position in this case. Because of the
inconsistency, the presumption of validity cannot
attach to the City’s action in filing this eminent
domain proceeding.
The June 19, 2002 ordinance was specifically based
on the redevelopment plan for the River West Tax
Increment Financing District (“the Plan”). Even the
City agrees. (City Response 10) That redevelopment
plan found that the area within the River West Tax
Increment Financing District was not blighted, but
did qualify as a conservation area under the Tax
Increment Allocation Redevelopment Act (65 ILCS
5/11-74.4-1 et seq.). The June 19, 2002 ordinance went
on to find that acquisition of the subject property was
necessary “to achieve the objectives of the Plan” – to
redevelop the subject property as a conservation area.
However, the June 19, 2002 ordinance then purported to find that acquisition of the subject property

34a
was necessary to improve a “commercially blighted
area.” The ordinance authorizing acquisition was
thus internally inconsistent as to whether the subject
property was or was not blighted. The City now
characterizes the use of the term “commercially
blighted area” as a “scrivener’s error” (City Response
9), which is understandable in light of the clear finding
that the River West TIF District was not blighted. But
the conflicting purposes and rationales found in the
ordinance authorizing acquisition mean that no
presumption, and no shifting of the burden of proof,
could thereby arise.
In support of the presumption, the City cites Walker,
Wheeling, Trustees of Schools v. Sherman Heights
Corp., 20 Ill.2d 357 (1960), and First National Bank
of Waukegan, but none are on point. Walker and
Wheeling involved properties that were specifically
found to be blighted. That is not the case here.
Sherman Heights involved a finding that property was
needed for playgrounds for a high school, and First
National Bank involved a finding that property was
necessary for a forest preserve; neither case involved
blight. None of the cases relied upon by the City
involved inconsistent and ambiguous findings regarding blight like those in the ordinance authorizing
acquisition here.
The inconsistency has been resolved by the City’s
Answers to Interrogatories. It is now undisputed that
the City of Chicago has never found the subject
property or the River West TIF District to be blighted.
Thus, the basis for the use of eminent domain found in
the June 19, 2002 ordinance – that the property is
“commercially blighted” – is false on its face. Because
the ordinance authorizing acquisition does not set
forth a clear and apparent basis for the authority of

35a
the City to use eminent domain, the burdens remain
with the City.
This case therefore presents the simple question of
whether private property may be condemned to take
from one private individual and give it to another for
purposes of economic redevelopment, where the
property lies in a conservation area but is neither
blighted nor a slum.
IV. Argument
Because there is no public use involved, the City
of Chicago is prohibited from using the tool of eminent
domain to take the subject property. The City
advances four arguments attempting to justify the
taking of Fred J. Eychaner’s property to give it to
Blommer Chocolate, but none of the arguments pass
muster.
A. THE PUBLIC PURPOSE THAT CAN JUSTIFY
THE USE OF TAX INCREMENT FINANCING
IS NOT THE PUBLIC USE REQUIRED TO
JUSTIFY THE USE OF EMINENT DOMAIN.
The City first argues that, because the subject
property is within a “conservation area,” there is a
proper public purpose for acquiring the property.
(City Response 7-10) The City confuses “public
purpose” with “public use.” While the redevelopment
of a conservation area may be suffused with a public
purpose, thus allowing under the TIF Act the expenditure of public funds or the voluntary acquisition of
private property, that is not enough to meet the
additional requirement of public use for the exercise of
the power of eminent domain. “Public purpose” and
“public use” are related, but different. SWIDA 199
Ill.2d at 237. To exercise the power of eminent domain,

36a
the public must be able to use or enjoy the property
taken, after the condemnation, not as a mere favor or
by permission of the owner, but by right. 199 Ill.2d at
238. That requirement is clearly not being met here.
The City points out that the TIF Act declares the
eradication of blighted areas to be essential to the
public interest. (City Response 8) That may be the
case, but the subject property is not blighted, as even
the City admits. And the designation of the surrounding area as a “conservation area” is admission by the
City that in fact the area is not blighted. (See 65 ILCS
5/11-74.4-3(b) (such an area “is not yet a blighted
area.”); City Response 11) Even though there may be
a public purpose for the City’s actions here, the City
cannot use eminent domain merely for economic
redevelopment without satisfying the public use
requirement.
B. MERE QUALIFICATION FOR TIF DOES NOT
DEMONSTRATE BLIGHT.
The City could still accomplish an economic redevelopment public purpose if the eminent domain
taking of the subject property were part of an effort to
clear slums or eliminate blight. But the City admits
that it has never found the area to be blighted or a
slum. In fact, it is demonstrably not. Therefore, the
SWIDA exception does not apply, and eminent domain
may not be used to take the subject property here.
The City argues that, so long as the project qualifies
under the TIF Act, eminent domain may be used as a
tool to implement the project. (City Response 10) This
is incorrect and directly contrary to SWIDA. The City
relies upon Board of Education, Pleasantdale School
Dist. v. Village of Bur Ridge, 341 Ill. App. 3d 1004
(1st Dist. 2003), but that case was a challenge by

37a
other taxing bodies to the designation of a TIF district.
The case did not involve the use of eminent domain.
The distinction is critical. There are special rules that
apply to the use of eminent domain that go beyond the
statutory requirements of the TIF Act. Merely because
a project qualifies for tax increment financing is no
reason to necessarily conclude that it also qualifies for
the use of eminent domain.
The City cites nine cases that the City says involve
conservation areas, and the City argues that these
cases establish that acquisition of parcels in a TIF
conservation area is an acceptable public purpose.
(City Response 12) The cases cited do not support the
City’s argument. The cases cited do not involve
eminent domain (City of Carbondale ex rel. Ham v.
Eckert 76 Ill. App. 3d 881 (5th Dist. 1979) (sale, not
acquisition, of urban renewal properties; LaSalle
Nat’l Bank v. City of Chicago, 6 M. App. 3d 306 (1st
Dist. 1972) (zoning of parcel at Foster and Sheridan);
Chicago Title and Trust Co. v. City of Chicago, 130
M. App. 2d 45 (1st Dist. 1970) (zoning litigation);
Guaranty Bank and Trust Co. v. City of Chicago, 112
Ill. App. 2d 378 (1st Dist. 1969) (challenge to zoning));
do not involve conservation areas (LaSalle; City of
X Chicago v. Central Nat’l Bank of Chicago, 5 Ill.2d
164 (1955) (eminent domain of property at Rush and
Delaware under the Parking Act)); involved an unrelated issue of eminent domain law (County Collector
v. D.R.G. Inc., 63 M. App. 3d 506 (1st Dist. 1978) (right
to award as between owner and tax purchaser));
arose under a different statute (City of Dekalb v.
Anderson, 43 App. 3d 915 (2nd Dist. 1976) (urban
renewal statute); City of Chicago v. Zwick, 27 Ill.2d
128 (1963) (Urban Renewal Consolidation Act); Ham
(Urban Community Conservation Act); People ex rel.
Gutknecht v. City of Chicago, 3 Ill.2d 539 (1954)

38a
(Urban Community Conservation Act); or involved the
use of eminent domain to acquire slums or blighted
properties (Anderson; Zwick). And even if the cases did
establish a public purpose for conservation areas, that
is not the public use that SWIDA requires for the
exercise of eminent domain.
The City also relies on City of Chicago v. Boulevard
Bank N.A., 293 Ill. App. 3d 767 (1st Dist. 1997). But in
that case, the City relied on ordinances “establishing
the blighted character of the subject area,” and there
was “no question” as to whether the area was blighted.
293 Ill. App. 3d at 771, 781. There are no such
ordinances here, and even the City agrees that the
area has not been found to be blighted.
The City argues that the public benefits of ‘ELF
designation are the same regardless of whether the
redevelopment area is blighted, or just a “conservation
area” (City Response 10-12), and appears to argue that
once a property qualifies for TIF, the “slum or blight
exception” of SWIDA applies (City Response 16-17).
But the “slum or blight exception” to the public use
requirement is far narrower than the factors that
allow a property to qualify under TIF.
The most salient application of the “slum or blight”
exception is Southwestern Illinois Development
Authority v. Al-Muhajirum, 318 Ill. App. 3d 1005 (5th
Dist. 2001). In that case, the court associated “blight”
with slum-like conditions, and characterized such
“derelict” properties as “unoccupied,” “unattended,”
“virtually uninhabitable,” “no doubt rat-infested” and
“strewn with rusted junk, discarded cans, bottles and
garbage bags.” 318 Ill. App. 3d at 1009. “The basic
character of the locale is still one of ruin and urban
decay. The area is blighted.” Id.

39a
It is a far cry from such urban devastation to a
mere disagreement as to the highest and best use of
property. Fred J. Eychaner’s property in this case is
currently vacant. The City may contend that Mr.
Eychaner is not putting his property to its highest and
best use. But the same Appellate Court that decided
Al-Muhajirum also decided, regarding the use of
property as a scrap yard, that “Although this may not
be the highest and best use of the property, such use
does not render the land blighted.” Southwestern
Illinois Development Authority v. National City Environmental, LLC, 304 Ill. App. 3d 542, 552 (5th Dist.
1999), aff’d 199 Ill.2d 225 (2002). A municipal plan to
raise the property to a higher and better private
use with a sweetheart private developer, like the
City’s plan here, cannot rest on the “slum or blight”
exception.
The limits of blight are somewhere in between.
Cases that discuss the concept include:


Norwegian American Hospital v. Department of Revenue, 210 Ill. App. 3d 318, 320
(1st Dist. 1991) “tenement buildings in
disuse or disrepair which the administrators described as a ‘zone of blight’
(emphasis added).



People ex rel. City of Urbana v. Paley, 68
Ill.2d 62, 66 (1977), in which “a serious
case of urban blight” was evidenced
by “general economic deterioration and a
proliferating number of vacant buildings
and buildings with structural and
mechanical infirmities” (emphasis added).



City of Chicago v. R. Zwick Co., 27 Ill.2d
128, 134 (1963), where the evidence sub-

40a
stantiating a finding of slum and blight
was that a great many structures suffered
from dilapidation and obsolescence, with
an average age of 75 years, stove heat was
predominant and many structures lacked
sanitary facilities.


City of Chicago v. Gorham, 80 Ill. App. 3d
496 (1st Dist. 1980), in which the fact of
blight was not contested but was evidenced by a 92% commercial vacancy rate
and the deteriorated condition of threequarters of the structures.

It thus appears that judicial confirmation of a finding
of blight requires some element of disuse, disrepair or
structural infirmity.
There is no hint whatsoever of any of these elements
here. The City has offered no evidence of blight, and
the City has made no finding of blight that may be
presumed valid.
C. TAKING THE SUBJECT PROPERTY TO GIVE
IT TO BLOMMER CHOCOLATE IS NOT A
PUBLIC USE.
The City cites the preservation of existing jobs, the
creation of new jobs and an increase in the tax base as
factors that make the taking here a taking for a public
use. (City Response 14) The City is incorrect, because
even if there is a public purpose to the City’s actions,
that does not satisfy the eminent domain requirement
of public use.
Nearly 60 years ago, a four-part test was laid down
in the context of slum clearance to determine whether
a private use after public acquisition to clear slums
could meet the constitutional public use requirement:

41a
1. The use must affect a community as
distinguished from an individual;
2. A law must control the use to be made of
the property;
3. The title must not be vested in a person or
corporation as private property to be used
and controlled as private property;
4. The public must reap the benefit of public
possession and use and no one can
exercise control except the municipality.
People ex rel. Tuohy v. City of Chicago, 394 Ill. 477, 485
(1946); see also Dep’t of Public Works v. Farina, 29
Ill.2,4 (1963) (Tuohy sets forth criteria of public use).
Even the City relies here on Tuohy. (City Response 16)
The taking here does not meet the Tuohy test. The
City’s answers to interrogatories make it clear that the
third and fourth elements of the test will be violated
here – title will be vested in a private entity as private
property, there will be no public possession and
someone other than the City will exercise control
over the subject property upon its acquisition. (¶ 22(d)
of City of Chicago Answers to Defendant’s First Set of
Interrogatories.) The City argues that the benefits
of preserving existing jobs, creating new jobs and
increasing the City’s tax base satisfies the public use
requirement. (City Response 14-15) SWIDA is directly
to the contrary.
This is a classic economic redevelopment taking, of
the kind barred by the Illinois Supreme Court in
SWIDA. The City has no authority to use eminent
domain, the Traverse should be granted and the
condemnation should be dismissed with prejudice.

42a
D. THE ILLINOIS PUBLIC USE REQUIREMENT
IS MORE STRINGENT THAN THE PUBLIC
USE CLAUSE OF THE U.S. CONSTITUTION.
With the law of Illinois squarely against it, the City
relies on Berman v. Parker, 348 U.S. 26, 99 L.Ed.2d
27, 75 S.Ct. 98 (1954), Hawaii Housing Authority v.
Midkiff, 467 U.S. 299, 81 L.Ed.2d 186, 104 S.Ct. 2321
(1984) and Kelo v. City of New London, 545 U.S. __,
162 L.Ed.2d 439, 125 S.Ct. 2655 (2005). None of these
cases overrule or supersede SWIDA. As explained in
Kelo,
We emphasize that nothing in our opinion
precludes any State from placing further
restrictions on its exercise of the takings
power. Indeed, many States already impose
“public use” requirements that are stricter
than the federal baseline.
162 L.Ed.2d at 457, 125 S.Ct. at 2668. Illinois has done
so by virtue of SWIDA. Therefore, the fact that some
states may allow the taking of private property from
one person to give to another for purposes of economic
development has no bearing on the City of Chicago’s
ability to do so here. Article I, section 15 of the Illinois
Constitution of 1970, as interpreted in SWIDA, forbids
the City of Chicago from exercising the power of
eminent domain for economic redevelopment on
property that is neither blighted nor a slum. It forbids
the condemnation here.
V. Conclusion
The City is attempting to condemn Fred J.
Eychaner’s property to give it to Blommer Chocolate
in the name of economic redevelopment. The property
is neither blighted nor a slum, and the City has never
found it to be so. The property is not being taken for

43a
public use, and therefore it is improper to use the tool
of eminent domain, even in pursuit of a proper public
purpose. The Traverse should be granted, and the
Complaint to Condemn dismissed with prejudice.
FRED J. EYCHANER
By: Thomas F. Geselbracht
One of His Attorneys
Thomas F. Geselbracht
Karen S. Way
DLA Piper Rudnick Gray Cary US LLP #41519
203 North LaSalle Street
Suite 1800
Chicago, Illinois 60601
(312) 368-4094/2152
STATE OF ILLINOIS
COUNTY OF COOK

)
) SS
)

CERTIFICATE OF SERVICE
I, Thomas F. Geselbracht, an attorney, hereby
certify that I caused the foregoing REPLY IN
SUPPORT OF TRAVERSE to be served upon:
Rick Taylor
Assistant Corporation Counsel
City of Chicago
Suite 1610
30 No. LaSalle Street
Chicago, Illinois 60602
by depositing a copy in the United States Postal
Service mail drop at 203 North LaSalle Street,
Chicago, Illinois, addressed to the above counsel and
with proper postage pre-paid, before 5:00 p.m. this
23rd day of March, 2006.
/s/ Thomas F. Geselbracht

44a
SUPPLEMENTAL APPENDIX D
IN THE APPELLATE COURT OF ILLINOIS
FIRST JUDICIAL DISTRICT
————
No. 13-1833
————
CITY OF CHICAGO, a municipal corporation,
Plaintiff-Appellee,
v.
FRED J. EYCHANER and UNKNOWN OWNERS,
Defendant-Appellant.
————
Appeal from the Circuit Court of
Cook County, Illinois;
No. 05 L 050792;
Hon. Rita M. Novak and
Hon. Margaret A. Brennan,
Judges Presiding.
————
BRIEF AND ARGUMENT OF
DEFENDANT-APPELLANT
————
Thomas F. Geselbracht
DLA PIPER LLP (US)
203 No. LaSalle Street
Suite 1900
Chicago, Illinois 60601
(312) 369-4094
Counsel for Defendant-Appellant Fred Eychaner
ORAL ARGUMENT REQUESTED

45a
I.
POINTS AND AUTHORITIES
STATEMENT OF FACTS
65 ILCS 5/11-74.4-1 et seq. (2000) ....................... 3
65 ILCS 5/11-74.4-3(a) (2000) .............................. 4
65 ILCS 5/11-74.4-3(b) (2000) .............................. 4
65 ILCS 5/11-74.4-8 (2000) .................................. 4
65 ILCS 5/11-74.4-4(c) (2000) .............................. 4
65 ILCS 5/11-74.4-4(b) (2000) .............................. 5
ARGUMENT
I. THE CITY OF CHICAGO MAY NOT
USE THE POWER OF EMINENT
DOMAIN TO TAKE FRED EYCHANER’S
NON-BLIGHTED PROPERTY TO GIVE
IT TO BLOMMER CHOCOLATE
COMPANY IN THE NAME OF
ECONOMIC REDEVELOPMENT.
A. Standard of Review.
Southwestern Illinois Development Authority
v. Al-Muhajirum,
318 Ill. App. 3d 1005, 744 N.E.2d 308 (5th
Dist. 2001) ....................................................... 11
B. Clear Illinois Supreme Court Precedent Prohibited The City’s Taking in
the Name of Economic Redevelopment.
Southwestern Illinois Development Authority
v. National City Environmental, LLC,
199 Ill.2d 225, 768 N.E.2d 1
(2002) .................................. 11-12 and in passim

46a
City of Chicago v. Walker,
50 Ill.2d 69, 277 N.E.2d 129 (1971) ................ 12
Village of Wheeling v. Exchange National
Bank of Chicago,
213 Ill. App. 3d 325, 572 N.E.2d 966 (1st
Dist. 1991) ....................................................... 12
City of Chicago v. Gorham,
80 Ill. App. 3d 496, 400 N.E.2d 42 (1st
Dist. 1980) ....................................................... 12
Southwestern Illinois Development
Authority v. National City
Environmental, LLC,
304 Ill. App. 3d 542, 710 N.E.2d 896 (5th
Dist. 1999), aff’d 199 Ill.2d 225, 768
N.E.2d 1 (2002) ............................................... 12
Friends of the Park v. Chicago Park
District, 203 Ill.2d 312, 786 N.E.2d 161
(2003) ......................................................... 15, 16
Kelo v. City of New London,
545 U.S. 469, 162 L.Ed.2d 439, 125 S.Ct.
2655 (2005) ...................................................... 17
City of Norwood v. Homey,
2006 Ohio 3799, 853 N.E.2d 1115 (2006) ....... 17
County of Wayne v. Hathcock,
471 Mich. 445, 684 N.E.2d 765 (2004) ........... 17
65 ILCS 5/11-74.4-3(b) ....................................... 14
735 ILCS 30/5-5-5 ............................................... 16
Village of Round Lake Park v. Amann,
311 Ill. App. 3d 705, 725 N.E.2d 35 (2nd
Dist. 2000) (distinguished) ............................. 14

47a
City of Chicago v. Midland Smelting Co.,
385 Ill.App.3d 945, 896 N.E.2d 364 (1st
Dist. 2008) (distinguished) ............................. 14
Southwestern Illinois Development
Authority v. Al-Muhajirum,
318 Ill. App. 3d 1005, 744 N.E.2d 308
(5th Dist. 2001) (distinguished) ..................... 13
II. THE PROJECT INFLUENCE RULE
BARRED CONSIDERATION OF THE
PMD ZONING OF THE PROPERTY,
WHERE THE CITY EMINENT DOMAIN
ACQUISITION OF THE EYCHANER
PROPERTY FOR BLOMMER CHOCOLATE COMPANY WAS CONSIDERATION FOR BLOMMER’S POLITICAL
SUPPORT FOR THE ENACTMENT OF
THE PMD ZONING.
A. Standard of Review.
Department of Transportation v.
Association of Franciscan Fathers,
93 Ill. App. 3d 1141, 418 N.E.2d 36 (2nd
Dist. 1981) ....................................................... 19
Trustees of Schools of Township Number
37 v. Chicago City Bank,
126 Ill. App. 2d 302, 262 N.E.2d 80 (1st
Dist. 1970) ....................................................... 19
B. The Project Influence Rule Barred
Consideration of the PMD Zoning in
Determining Just Compensation.
735 ILCS 30/10-5-60 ........................................... 20

48a
Forest Preserve District of Du Page County
v. Valente,
61 Ill. App. 3d 887, 378 N.E.2d 345 (2nd
Dist. 1978) ....................................................... 20
Department of Public Works v.
Exchange Nat’l Bank,
31 Ill. App. 3d 88, 334 N.E.2d 810 (2nd
Dist. 1975) ............................................ 20-21, 22
Department of Transportation v.
Amoco Oil Co.,
174 Ill. App. 3d 479, 528 N.E.2d 1018
(2nd Dist. 1988) ............................................... 21
Department of Public Works v. Wolf,
414 Ill. 386, 111 N.E.2d 322 (1953) ................ 21
Galt v. County of Cook,
405 Ill. 396, 91 N.E.2d 395 (1950) .................. 21
United States v. Miller,
317 U.S. 369, 87 L.Ed.2d 336, 63 S.Ct.
276 (1943) ........................................................ 20
People ex rel. Department of Public Works
v. Arthofer,
245 Cal. App. 2d 454, 54 Cal. Rptr. 878
(4th Dist. 1966) ............................................... 22
City of San Diego v. Rancho Penasquitos
Partnership,
105 Cal. App. 4th 1013, 130 Cal. Rptr.
2d 108 (4th Dist. 2003) ............................. 21, 22
Ventures in Property I v. City of Wichita,
225 Kan. 698, 594 P.2d 671 (1979) ................. 21

49a
Metropolitan Water District of Southern
California v. Campus Crusade for
Christ, Inc.,
135 Cal. App. 4th 568, 37 Cal. Rptr. 3d
598 (4th Dist. 2006) (distinguished)............... 22
Thacker v. U.N.R. Industries, Inc.,
151 Ill.2d 343, 603 N.E.2d 449 (1992) ............ 22
3 NICHOLS ON EMINENT DOMAIN (3d
ed.) Sec. 8A.01 [3] [a] ...................................... 20
C. Evidence That the PMD Zoning and
This Eminent Domain Taking Were
Part of the Same Project – A “Unified,
Comprehensive Solution.”
III. DEFENDANT SHOULD HAVE BEEN
ALLOWED TO PRESENT EVIDENCE
OF THE HISTORY AND CIRCUMSTANCES OF THE ADOPTION OF THE
PMD ZONING TO SUPPORT THE
REASONABLE
PROBABILITY
OF
REZONING.
A. Standard of Review.
City of Chicago v. Anthony,
136 Ill.2d 169, 554 N.E.2d 1381 (1990) .... 34-35
B. Evidence of How the PMD Zoning
Was Adopted Was Both Reasonable
and Necessary for the Jury to Come to
an Informed Opinion of the Reasonable Probability of Re-Zoning and the
Highest and Best Use of the Eychaner
Property.

50a
Illinois State Toll Highway Authority v.
Heritage Standard Bank,
250 Ill. App. 3d 665, 619 N.E.2d 1321
(2nd Dist. 1993) .......................................... 37-38
IV. ALLOWING THE CITY TO PRESENT
THE TESTIMONY OF APPRAISER
MICHAEL S. MaROUS TO THE JURY
WAS REVERSIBLE ERROR.
A. Standard of Review.
Neal v. Nimmigada,
279 Ill. App. 3d 834, 665 N.E.2d 424 (1st
Dist. 1996) ....................................................... 39
City of Chicago v. Merton,
99 Ill. App. 3d 101, 424 N.E.2d 1326 (1st
Dist. 1981) .................................................. 39-40
McDonnell v. McPartlin,
192 Ill.2d 505, 736 N.E.2d 1074 (2000) .......... 40
Citibank, N.A. v. McGladrey and Pullen,
LLP,
2011 IL App (lst) 102427, 953 N.E.2d 38 ....... 40
B. The City Should Not Have Been
Allowed to Add New Appraisers on the
Eve of Trial.
Neal v. Nimmigada,
279 Ill. App. 3d 834, 665 N.E.2d 424 (1st
Dist. 1996) ....................................................... 41
Illinois Supreme Court Rule 218 ....................... 40
C. Defendant Should Have Been Allowed
to Elicit on Cross-Examination of the
City’s Witness His True Opinions of
the Reasonable Probability of ReZoning and Fair Cash Market Value.

51a
Neal v. Nimmigada,
279 Ill. App. 3d 834, 665 N.E.2d 424 (1st
Dist. 1996) ....................................................... 42
Piano v. Davison,
157 Ill. App. 3d 649, 510 N.E.2d 1066
(1st Dist. 1987) ................................................ 43
Kurrack v. American District Telegraph Co.,
252 Ill. App. 3d 885, 625 N.E.2d 675 (1993) .. 43
Leonardi v. Loyola University of Chicago,
262 Ill. App. 3d 411, 633 N.E.2d 809
(1993) ............................................................... 43
D. All the MaRous Testimony Should
Have Been Stricken After He Violated
the Trial Court’s In Limine Order and
Identified Defendant as His Prior
Employer.
Department of Business and Economic
Development v. Schoppe,
1 Ill. App. 3d 313, 272 N.E.2d 696 (2nd
Dist. 1971) ....................................................... 44
Department of Public Works v. Guerin,
19 Ill. App. 3d 509, 311 N.E.2d 722 (2nd
Dist. 1974) ....................................................... 44
Tucker v. Division Sales, Inc.,
315 Ill. App. 3d 472, 734 N.E.2d 165 (3d
Dist. 2000) ....................................................... 45
Kutchins v. Berg,
264 Ill. App. 3d 926, 638 N.E.2d 673 (1st
Dist. 1994) ....................................................... 46
Cancio v. White,
297 Ill. App. 3d 422, 697 N.E.2d 749 (1st
Dist. 1998) ....................................................... 46

52a
Rutledge v. St. Anne’s Hospital,
230 Ill. App. 3d 786, 595 N.E.2d 1165
(1st Dist. 1992) ................................................ 46
Geisberger v. Quincy,
3 Ill. App. 3d 437, 278 N.E.2d 404 (2nd
Dist. 1972) ...........................................................
E. Summary.
V.

THE VERDICT WAS THE RESULT OF
A CLEAR AND PALPABLE MISTAKE.
City of Chicago v. Shell Oil Co.,
29 Ill.2d 136, 193 N.E.2d 259 (1963) .............. 47
City of Chicago v. Giedraitis,
14 Ill.2d 45, 150 N.E.2d 577 (1962) ................ 47
Department of Public Works & Buildings
v. Pellini,
7 Ill.2d 367, 131 N.E.2d. 55 (1956) ................. 47
Department of Transportation v. First
Bank of Schaumburg,
260 Ill. App. 3d 490, 631 N.E.2d 1145
(1st Dist. 1992) ................................................ 47
Spaetzel v. Dillon,
393 Ill. App. 3d 806, 914 N.E.2d 532 (lst
Dist. 2009) ....................................................... 48
Birch v. Township of Drummer,
139 Ill. App. 3d 397, 487 N.E.2d 798 (4th
Dist. 1985) ....................................................... 48

53a
II.
NATURE OF THE CASE
This is an eminent domain case in which the property owner filed a Traverse to challenge the authority
of the City of Chicago to use the power of eminent
domain to acquire his non-blighted property to give it
to the property owner next door in the name of economic redevelopment. The Traverse was denied; and
the Circuit Court certified the issue for immediate,
interlocutory appeal; but the Appellate Court refused
leave to appeal. The case was then tried to a jury
verdict. The denial of the Traverse, evidentiary issues
at the trial arising from the Circuit Court’s violation
of the “project influence rule” and the City’s improper
use of an appraisal witness, plus the amount of the
verdict, are all being appealed.
III.
ISSUES PRESENTED FOR REVIEW
1. May the City of Chicago use eminent domain to
take property from one person to give it to another in
the name of economic redevelopment, where the property is neither blighted nor a slum?
2. Did the “project influence rule” bar consideration
of the Planned Manufacturing zoning of the property,
where the taking of the property to give it to Blommer
Chocolate Company was consideration for Blommer
Chocolate Company’s political support for the enactment of the Planned Manufacturing zoning?
3. Should the trial judge have barred evidence of the
history and circumstances of the enactment of the
Planned Manufacturing zoning when it was offered to
address the reasonable probability of a change in that
zoning?

54a
4. Should the City have been allowed to add two
new appraisers to its list of witnesses on the eve of
trial, and thus change its presentation of the case?
5. Should the trial judge have barred defendant
from cross-examining the City’s newly added expert to
elicit his opinion that in fact there was a reasonable
probability of re-zoning, and his opinion that the
property condemned had a far higher fair cash market
value in light of that?
6. Once the City’s newly added expert testified in
violation of the trial court’s in limine order that he had
originally been hired by defendant, should all of his
testimony have been stricken?
7. Was the jury’s verdict the result of clear and
palpable mistake?
IV.
STATEMENT OF JURISDICTION
The Appellate Court has jurisdiction pursuant to
Illinois Supreme Court Rule 303 as the appeal of a
final judgment order entered on the verdict. The
Circuit Court denied defendant’s Traverse challenging
the authority and necessity for the take on August 21,
2006 (C. 313), but certified the issue for appeal (C. 571).
The Appellate Court denied leave to appeal the certified question on November 9, 2006. City of Chicago v.
Eychaner, No. 1-06-2923. (C. 590) The Circuit Court
then empaneled a jury, which returned its verdict of
just compensation on January 28, 2013. (C. 3502)
Judgment was entered on the verdict on February 11,
2013. (C. 3572) Defendant timely filed his Post-Trial
Motion on February 21, 2013 (C. 3635), but it was
denied on May 15, 2013. (C. 4119) Defendant filed his
Notice of Appeal on June 10, 2013. (C. 4120)

55a
V.
STATEMENT OF FACTS
The following facts are undisputed:
• Defendant Fred Eychaner’s property is a vacant
parcel of 25,440 square feet at the southwest
corner of Grand and Jefferson in Chicago,
Illinois. (C. 64)
• The City of Chicago has not found or determined the Eychaner property to be blighted, or
a slum. (C. 71, 74)
• On August 24, 2005, the City of Chicago filed
this eminent domain proceeding to acquire all
of the Eychaner property. (C. 2-9)
• According to the City of Chicago, “The City will
obtain title to the subject property through the
condemnation lawsuit. The property will be sold
to Blommer Chocolate Company after its acquisition in accordance with the Redevelopment
Agreement and the Agreement for the Sale and
Redevelopment of Land between the parties
pursuant to City Council authorization.” (C. 73)
The Eychaner property is located just north of the
Blommer Chocolate factory, and just west of a 34-story
apartment building on the edge of the Chicago River.
(For aerial photographs of the immediate area, see C.
3614-16; Supp. C. 350, 402)
On November 14, 2000, the Chicago Community
Development Commission recommended to the Chicago
City Council that the City designate the River West
Tax Increment Financing Redevelopment Project Area
and approve the River West Tax Increment Financing
Redevelopment Plan under the Tax Increment Allocation Redevelopment Act, 65 ILCS 5/11-74.4-1 et seq.

56a
(2000) (the “TIF Act”). (C. 108-131) The Chicago City
Council did so on January 10, 2001. (C. 132-231) The
Eychaner property is included within the redevelopment project area and is thus covered by the River
West TIF redevelopment plan. (C. 31, 36, 138, 196)
The TIF Act authorizes two kinds of redevelopment
areas. A “blighted area” contains to a meaningful
extent a threshold level of blighting factors reasonably
distributed throughout the project area. 65 ILCS 5/1174.4-3(a) (2000). A “conservation area” also contains
blighting factors, but not in the intensity or concentration of a “blighted area,” such that designation as a
“conservation area” means that an area is “not yet a
blighted area” but “may become a blighted area.”
65 ILCS 5/11-74.4-3(b) (2000). The River West TIF
Redevelopment Project Area – containing the Eychaner
property – was designated by the City of Chicago only
as a “conservation area.” (C. 146)
Designating a redevelopment area and adopting a
redevelopment plan under the TIF Act gives a municipality three tools. First is the ability to undertake
public financing of redevelopment projects in the
redevelopment area. 65 ILCS 5/11-74.4-8 (2000). On
January 10, 2001, the City Council adopted tax increment financing for the River West TIF Redevelopment
Project Area. (C. 222-28) Second is the ability to use
eminent domain to acquire property. 65 ILCS 5/1174.4-4(c) (2000). By ordinance on June 19, 2002, the
City Council authorized the acquisition of the Eychaner
property through the use of eminent domain. (C. 22931) The City Council found it “useful, desirable and
necessary” that the City acquire the Eychaner property
for redevelopment, and that the acquisition of the
Eychaner property was “necessary and required for

57a
the home rule public purpose of improving a commercially blighted area.” (C. 195)
Third is the ability to enter into redevelopment
agreements consistent with the TIF redevelopment
plan for particular projects within the redevelopment
area. 65 ILCS 5/11-74.4-4(b)(2000). On February 8,
2006, the Chicago City Council approved a TIF redevelopment agreement with Blommer Chocolate Company.
That redevelopment agreement involves partial City
financing of a phased expansion of Blommer’s candy
manufacturing facilities. (C. 1040-87) Phase II of the
expansion includes the City’s acquisition of the Eychaner
property, conveyance of the land to Blommer, and its
inclusion in the expanded Blommer industrial campus.
(C. 1044)
On August 24, 2005, the City of Chicago filed its
Complaint to Condemn in the Circuit Court of Cook
County to acquire the Eychaner property by eminent
domain. (C. 2-9) On September 15, 2006, the City filed
an Amended Complaint to Condemn to correct a scrivener’s error. (C. 29-36) On January 23, 2006, defendant
Fred Eychaner filed his Traverse challenging the
City’s authority to use eminent domain. (C. 39-42) The
Traverse noted that the City’s January 10, 2001,
designation ordinance did not find the River West TIF
Redevelopment Project Area to be blighted, but rather
to be a “conservation area” under the TIF Act, because
the eligibility study approved by the City Council only
found the River West TIF Redevelopment Project Area
to be a “conservation area” under the TIF Act. (C. 40)
The Traverse also noted that the public purpose for
which the City is attempting to use the power of
eminent domain herein is not to clear slums or to
eliminate blight, but rather economic redevelopment –
specifically, to take Mr. Eychaner’s property by the

58a
power of eminent domain in order to convey the
property to a favored developer – Blommer Chocolate
Company. (C. 40) The Traverse alleged that the City’s
intended use is not a proper public use under the law,
and therefore the taking of the Eychaner property
violates the 5th and 14th Amendments to the United
States Constitution and Article I, Sections 2 and 15 of
the Illinois Constitution of 1970. (C. 40)
After briefing and argument on defendant’s Traverse,
the Circuit Court issued its Memorandum Decision
and Order on August 21, 2006, denying defendant’s
Traverse and sustaining the City’s Complaint to
Condemn. (C. 313) Upon defendant’s motion, and over
the objection of the City of Chicago, the Circuit Court
certified the order denying the Traverse for immediate, interlocutory appeal on October 5, 2006. (C. 571)
In certifying the issue for interlocutory appeal, the
Circuit Court found, inter alia:
2. The issue of the City of Chicago’s
authority to use eminent domain to acquire
defendant’s property is well-defined in this
case, based on the facts that are undisputed
or assumed on defendant’s Traverse, thus
rendering the issue nearly a pure question of
law.
3. The import, scope and meaning of the
Illinois Supreme Court’s decision in
Southwestern Illinois Development Authority
v. National City Environmental, LLC, 199
Ill.2d 225, 768 N.E.2d 1 (2002) give valid
grounds for disagreement as to the question
of law.
(C. 571-72) Notwithstanding the Circuit Court’s
certification, the Appellate Court denied Eychaner’s

59a
Rule 308 Application for Leave to Appeal on November
9, 2006. (C. 590)
The case then proceeded to jury trial. The trial
judge1 denied several motions in limine. First, defendant moved to bar evidence of the zoning of the subject
property pursuant to the “project influence rule,”
because the restrictive zoning in place on the date of
value – Planned Manufacturing District (PMD) – had
been adopted as part of a political deal that included
the City’s commitment to acquire defendant’s property
and give it to defendant’s neighbor, Blommer Chocolate
Company, in return for Blommer’s support of the PMD
zoning. (C. 647-1107) This motion was denied on
December 20, 2007. (C. 1123; R. 18-072 to -0802)
Then, the City moved to bar the evidence of how the
City’s commitment to acquire the Eychaner property
fit into the City’s enactment of the restrictive PMD
zoning. (C. 1959-3099) Defendant argued that this
evidence was admissible to show that the restrictive
PMD zoning was ad hoc rather than carefully planned,
and that there was therefore a reasonable probability
that the restrictive zoning would be changed to allow
high-rise residential development like the 34-story
apartment building immediately to the east, rather
than just manufacturing uses like the Blommer
Chocolate plant to the south. (Supp. C. 1350-51; C.
3393-3401) The trial judge granted the City’s motion
1

The rulings on the Traverse and on defendant’s first motion
in limine were made by Judge Rita M. Novak. All subsequent
rulings now on appeal were made by Judge Margaret A. Brennan,
who presided at the jury trial.
2

The Circuit Court Clerk separately paginated each volume of
the Report of Proceedings. References to the Report of Proceedings
are therefore to the volume and page number in the record, i.e.,
“R. 18-072” refers to Volume 18, page 72 of the record.

60a
in part, and excluded the bulk of the evidence. (C.
3423; R. 20-125 to -249; R. 21-002 to -007)
The City prepared its case with two appraisers,
James Gibbons and Kathy Dart, each of whom testified that there was no reasonable probability that the
restrictive PMD zoning would be changed. (C. 1912,
1920; R. 24-086, 23-178) Defendant prepared his case
with three appraisers. Dale Kleszyniski and Joseph
Thouvenell were of the opinion that there was a
reasonable probability of a change in zoning to allow
high-rise residential development. Michael S. MaRous
had two alternative opinions of value. The first,
prepared at the direction of counsel, was premised on
the extraordinary assumption that there could be
no change in the PMD zoning, and concluded that
the value of the subject property would thus be
$2,550,000. (R. 21-122; C. 3469; C. 2233-38) For the
second, MaRous exercised his professional judgment
and concluded that there actually was a reasonable
probability of a change in zoning, to allow high-rise
residential development, leading to a fair market
value of $3,560,000. (R. 21-120; C. 2233, 3468)
The trial judge denied the City’s motion in limine to
bar evidence of reasonable probability of re-zoning,
after an evidentiary hearing. (C. 1888) Five days
before the scheduled start of trial, the City added
Thouvenell and MaRous as its trial witnesses – thus
changing the presentation of its case to now include
a reasonable probability of re-zoning. (C. 1918-24)
Defendant moved to strike the City’s last-minute
designation (C. 1894-1924), but the City was allowed
to use the new witnesses (C. 1957-58). Thereafter,
defendant formally abandoned Thouvenell and MaRous
as appraisal witnesses. (C. 3384)

61a
On the morning that trial commenced, the City
moved to bar any cross-examination of MaRous to
elicit his $3,560,000 opinion of value premised on his
belief that there was a reasonable probability of
re-zoning. (C. 3468) The trial judge granted the City’s
motion. (R. 21-124)
The range of appraisal testimony presented to the
jury at trial was:
Name

Zoning opinion

Value

•James Gibbons

No reasonable
probability of re-zoning

$1,400,000

•Kathy Dart

No reasonable
probability of re-zoning

$1,530,000

•Joseph Thouvenell Reasonable probability
of re-zoning

$3,600,000

•Dale Kleszyniski

$5,100,000

Reasonable probability
of re-zoning

Based on the extraordinary assumption that would
there never be a change in zoning, Michael S. MaRous
testified to the jury of a fair cash market value of
$2,550,000. (R. 22-029, 22-081 to -082)
In light of the new alignment of appraisers following
the City’s last-minute designation of Thouvenell and
MaRous, defendant had moved to bar any testimony
that he had previously employed Thouvenell and
MaRous. (C. 3450-54). That motion was granted.
(C. 3455) However, during the City’s redirect examination, MaRous testified:
Q. And a corporation did not hire you to
appraise the subject property in this case, did
they?
A. It may have been one of Mr. Eychaner’s
corporations. I don’t recall.

62a
(R. 22-084) Defendant’s motion to strike this testimony was granted (R. 22-084), but the trial judge
refused to strike all of the MaRous testimony (R. 22089 to -095). Instead, the jurors were instructed not
to concern themselves with who may have requested
MaRous to perform an appraisal of the subject
property. (R. 22-098 to -099)
The jury returned a verdict of just compensation
totaling $2,500,000. (C. 3502) Judgment was entered
on the verdict (C. 3572-74), and the City of Chicago
deposited the amount of the verdict plus interest with
the Treasurer of Cook County on February 27, 2013.
(C. 3668-69) Because defendant has appealed the City
of Chicago’s authority to use eminent domain to take
away his property, and the jury verdict, Mr. Eychaner
has made no attempt to collect the condemnation
award.
Defendant timely filed his Post-Trial Motion on
February 21, 2013. (C. 3635-46) After briefing and
argument, defendant’s post-trial motion was denied on
May 15, 2013. (C. 4119)
Notice of appeal was filed on June 10, 2013.
(C. 4120-22)
VI.
ARGUMENT
The City of Chicago has no right to use eminent
domain to take defendant’s property. Its basis for
doing so – to foster economic redevelopment by giving
defendant’s property to another private party – is a
taking for private use, not public use, and is banned
by clear Illinois Supreme Court precedent. The “blight
exception” does not save the City, because the City
itself has found that the property is neither blighted

63a
nor a slum. Defendant’s Traverse should have been
granted, and this condemnation case never should
have been allowed to proceed.
To compound this error, the issue of just compensation was sent to the jury under false premises. The
very zoning which ‘defined the uses permitted on the
property, and thus its value, was part of the project for
which the property was being taken. The zoning was
tainted, and just compensation should have been
determined without reference to it. In addition, once
the tainted zoning was used, the jury should have been
allowed to hear that it was adopted in an ad hoc
manner, in a deal that traded eminent domain acquisition of defendant’s property for the political support of
defendant’s neighbor for zoning sought by The Tribune
Company. This evidence was relevant to show that
there was a reasonable probability that a truly neutral
municipality would have re-zoned the property to
allow residential high-rise development like the 34story apartment building next door.
Finally, the verdict was the result of clear mistake.
The verdict was just 2% less than the opinion of an
appraiser who was proceeding under the extraordinary assumption that the zoning could never be
changed, whom the City was allowed to add to its
witness list on the eve of trial, a witness whom the
City was able to identify as formerly employed by
defendant. The jury was not allowed to hear that this
appraiser’s actual opinions, based on his professional
judgment without any extraordinary assumptions,
were that there was a reasonable probability of rezoning, and a fair market value more than 42% higher
than the verdict.
The judgment should be reversed, and this eminent
domain proceeding dismissed with prejudice. In the

64a
alternative, the judgment should be reversed, and the
case remanded for a new jury trial on just compensation.
I. THE CITY OF CHICAGO MAY NOT USE THE
POWER OF EMINENT DOMAIN TO TAKE
FRED EYCHANER’S NON-BLIGHTED PROPERTY TO GIVE IT TO BLOMMER
CHOCOLATE COMPANY IN THE NAME OF
ECONOMIC REDEVELOPMENT.
A. Standard of Review.
“[T]he overriding question of whether an eminentdomain action is constitutionally sound is a matter for
de novo review.” Southwestern Illinois Development
Authority v. Al-Muhajirum, 318 Ill. App. 3d 1005,
1008, 744 N.E.2d 308, 310 (5th Dist. 2001).3
B. Clear Illinois Supreme Court Precedent
Prohibited The City’s Taking in the Name of
Economic Redevelopment.
Illinois law is clear that the constitution does not
allow private property to be taken by eminent domain
to give the property to another private party, simply
to spur economic development, unless the property
is either blighted or a slum. Southwestern Illinois
Development Authority v. National City Environmental,
LLC, 199 Ill.2d 225, 238, 768 N.E.2d 1, 9 (2002)
(“SWIDA”), citing Village of Wheeling v. Exchange
National Bank of Chicago, 213 Ill. App. 3d 325, 572
N.E.2d 966 (1st Dist. 1991); City of Chicago v. Gorham,
80 Ill. App. 3d 496, 400 N.E.2d 42 (1st Dist. 1980); and

3

The trial court’s factual finding that the subject property is
neither blighted nor a slum would be reviewed under the manifest
weight standard (Al-Muhajirum, 318 Ill. App. 3d at 1007-08, 744
N.E.2d at 310), but that finding is not being appealed here.

65a
City of Chicago v. Walker, 50 Ill.2d 69, 277 N.E.2d 129
(1971).
The Circuit Court certified the following issue for
appeal in this case: “May a municipality use the power
of eminent domain to take private property from one
individual in connection with an economic redevelopment project to give to another private entity where
the subject property is neither blighted nor a slum?”
(C. 572) This issue follows directly from SWIDA, and
is squarely framed by the particular facts here.
Defendant’s property is being taken by the City of
Chicago to give it to Blommer Chocolate Company, a
private party, in the name of economic redevelopment.
The City, in its answers to interrogatories early on in
this case, admitted it. (C. 73) The City has not found
defendant’s property to be blighted, or a slum. (C. 71,
74) The taking is specifically based on the redevelopment plan for the River West TIF District (C. 2-4, 2931), which did not find the area within the River West
TIF District to be blighted, but did find that it would
qualify as a conservation area. (C. 144, 146, 174-185)
No case law authorizes the use of eminent domain
to take private property from one private party to give
it to another where the property is not blighted, but is
in a conservation area. Merely because the City thinks
that defendant’s property may be put to a higher or
better use is not enough to justify the use of eminent
domain. Southwestern Illinois Development Authority
v. National City Environmental, LLC, 304 Ill. App. 3d
542, 552, 710 N.E.2d 896, 904 (5th Dist. 1999), aff’d,
199 Ill.2d 225, 768 N.E.2d 1 (2002). A municipal plan
to raise the property to a supposedly higher and better
use with a sweetheart private developer, like the
City’s plan here, cannot rest on the “slum or blight”
exception to SWIDA.

66a
The City of Chicago exceeded its constitutional
authority in taking Mr. Eychaner’s property to give it
to Blommer Chocolate Company. This Court should
now vacate the judgment, reverse the Circuit Court,
grant defendant’s Traverse, and dismiss this cause
with prejudice.
In SWIDA, the Illinois Supreme Court considered
the taking of vacant private property by eminent
domain in the name of economic redevelopment to
turn the property over to a privately owned racetrack
for its use as parking. The owner’s traverse had been
denied, upholding the condemnation, but the Appellate
Court reversed, and the Supreme Court affirmed. The
Supreme Court Ailed that eminent domain must be
used “with restraint, not abandon” (199 Ill.2d at 242,
768 N.E.2d at 11), and that eminent domain is subject
to a strict requirement that the property be taken for
“public use” (id., at 238, 9).
In the decade since the SWIDA decision, most
condemnation cases in which a challenge has been
raised to a municipality’s authority to use eminent
domain for economic redevelopment have been
diverted to the issue of whether the “slum or blight”
exception to the public use requirement – an exception
recognized in SWIDA (199 Ill.2d at 238, 768 N.E.2d
at 9) – applies. See, e.g., Southwestern Illinois
Development Authority v. Al-Muhajirum, 318 Ill. App.
3d 1005, 1009, 744 N.E.2d 308, 311 (5th Dist. 2001),
where the property taken was “virtually uninhabitable,” located “in the heart of a blighted area,” and
included “unoccupied and unattended slums,” and the
blight exception clearly applied.
The Appellate Court’s other post-SWIDA cases
have not overturned the rule dictated by the SWIDA
majority. Village of Round Lake v. Amann, 311 Ill.

67a
App. 3d 705, 715, 725 N.E.2d 35, 44 (2nd Dist. 2000),
held that SWIDA did not apply to a taking for a public
right-of-way that would primarily serve only one
private entity because the “plaintiff was not acquiring
private property for the purpose of transferring it to
another private entity.” Here, of course, the City is.
And the City’s acquisition here is not a “substitute
condemnation,” where Blommer is being given Eychaner’s
property to compensate Blommer for land lost to a
proper public project, as in City of Chicago v. Midland
Smelting Co., 385 Ill.App.3d 945, 974, 896 N.E.2d 364,
391 (1st Dist. 2008).
This case offers a unique opportunity to re-affirm
the SWIDA holding because of the particular facts
involved. The “slum or blight” exception does not apply
here, because the vacant property is neither blighted
nor in a slum. The City of Chicago admits it (C. 7, 73,
74); the Circuit Court so found (C. 318, 324); and the
very designation of the Eychaner property in a
“conservation area” under the TIF Act is by definition
a determination that the area is not blighted. 65 ILCS
5/11-74.4-3(b). Furthermore, it is undisputed that the
Eychaner property is being taken by eminent domain
as part of an economic redevelopment project, to
convey the property to another private entity for that
private entity’s private use and profit – Blommer
Chocolate Company. (C. 73)
Thus, this case clearly tests whether the Supreme
Court meant what it said in SWIDA – that eminent
domain may not be used to take private property for
economic development unless the public, after the
take, is entitled to use the property not as a mere favor
or by permission of the owner, but as a matter of
right (199 Ill.2d at 238, 768 N.E.2d at 9). In SWIDA,
the Supreme Court’s majority noted the distinction

68a
between the requirement of “public purpose” – which
all expenditures of public funds must satisfy – and the
more stringent requirement of “public use” – which
only applies to exercises of the power of eminent
domain. 199 Ill.2d at 237, 768 N.E.2d at 8.
Justice Freeman dissented in SWIDA, citing prior
cases which had equated the restrictions of “public
purpose” and “public use.” 199 Ill.2d at 254-59, 768
N.E.2d at 1720). In the later case of Friends of the Park
v. Chicago Park District, 203 Ill.2d 312, 786 N.E.2d
161, 174 (2003), Justice Freeman (this time in a special
concurrence) called the SWIDA case dead, because the
majority decision in Friends of the Park upheld the
expenditure of public funds to renovate Soldier Field
based on the loose “public purpose” standard instead
of a strict “public use” standard. Justice Freeman
thought that Friends of the Park necessarily overruled
SWIDA. Justice Freeman was emphatic:
By this holding, the majority recognizes what
it refused to acknowledge in Southwestern
Illinois Development Authority. It only remains
for this court to explicitly overrule the “public
entitlement” requirement advanced in
Southwestern Illinois Development Authority.
203 Ill.2d at 335, 786 N.E.2d at 174.
However, the Friends of the Park majority disagreed
with Justice Freeman. The opinion of the Illinois
Supreme Court in that case noted that spending money
to renovate Soldier Field met the loose requirement of
“public purpose,” and that the stricter requirement of
“public use” did not come into play because there was
no exercise of eminent domain in Friends of the Park.
203 Ill.2d at 323, 786 N.E.2d at 168. Thus, the
members of our Supreme Court are split on the correct

69a
meaning and import of SWIDA, but the majority
upholds the important constitutional principle that
prohibits the exercise of eminent domain for a private
use.
In the summer of 2006, the two other branches of
government weighed in on the issue with the passage
of eminent domain reform legislation. The General
Assembly amended the eminent domain article of the
Code of Civil Procedure to prohibit the use of eminent
domain for economic development, except where the
property being condemned is itself blighted or a slum;
and the governor signed the new act into law. Public
Act 941055 (2006); 735 ILCS 30/5-5-5. The reform
legislation, however, is prospective only, and does not
apply to the present case.4
There may thus be, as Judge Novak said, substantial ground for disagreement in the constitutional law
of eminent domain – but the disagreement was
resolved in Illinois by SWIDA. Must the exercise of
eminent domain for economic redevelopment meet the
strict and special requirement of “public use,” or may
it be wielded so long as it meets the looser and more
general requirement of “public purpose” that due
process requires of all governmental action? If the
answer is the former, then defendant’s Traverse
4

It should be noted, however, that while the Eminent Domain
Act now bars the use of eminent domain “unless it is for a public
use”, there is an exception for the acquisition of property in
furtherance of a TIF redevelopment plan. 735 ILCS 30/5-5-5(a),
(b). The TIF exception does not apply, however, to “any acquisition of property in a conservation area for which the
condemnation complaint is filed more than 12 years after the
effective date of’ the Act. 735 ILCS 30/5-5-5(a-10)(iii). The legislature thus recognizes that conservation areas are not blighted, and
do not fall under the blight exception.

70a
should have been granted and the Complaint to
Condemn dismissed; if the latter, then the Circuit
Court was correct in denying the Traverse and
sustaining the Complaint to Condemn.
Based on the binding SWIDA precedent, the Circuit
Court’s answer and analysis here was wrong. The
Circuit Court’s decision followed the lead of Justice
Freeman’s dissent in SWIDA and his special concurrence in Friends of the Parks. Judge Novak first found,
inter alia, that “. . . this case is consistent with a long
line of authority that holds that there is no constitutional prohibition against using public funds in a
manner that provides benefits to private interests,
as long as the money is used for a public purpose.”
(C. 321) She then found an adequate public purpose in
the acquisition of defendant’s property to preserve
“diminishing confectionary manufacturing businesses
in Chicago” and “eliminating conditions that verge
on blight” (C. 323, 324-25), and found that “no basis
exists to require a showing of blight and slums alone
to establish a public use as required by the Illinois
Constitution in this context” (C. 323).
In denying the Traverse in this case, Judge Novak
fused together the requirements of “public purpose”
and “public use.” Her opinion expressly rejected the
distinction between the two (C. 320), which the Illinois
Supreme Court majority had said in SWIDA had been
“blurred somewhat in recent years” but “still exists
and is essential.” 199 lll.2d at 237, 768 N.E.2d at 8.
Judge Novak considered the Ohio Supreme Court’s
decision in City of Norwood v. Homey, 2006 Ohio 3799,
853 N.E.2d 1115 (2006), which had likewise recognized
the distinction, building upon both the Illinois Supreme
Court’s decision in SWIDA and the Michigan Supreme
Court’s decision in County of Wayne v. Hathcock, 471

71a
Mich. 445, 684 N.E.2d 765 (2004). But Judge Novak
held to the contrary, stating that the distinction between
public purpose and public use was not consistent with
“SWIDA in particular and other controlling Illinois
precedent in general.” (C. 325) Judge Novak adopted
the dissenting position rejected both in SWIDA itself
and in the emerging trend of state court eminent
domain cases across the nation. In this manner Judge
Novak erred.
In Kelo v. City of New London, 545 U.S. 469, 489,
162 L.Ed.2d 439, 457, 125 S.Ct. 2655, 2668 (2005), the
United States Supreme Court left the issue of whether
a municipality may condemn private property from
one person to give to another private individual in the
name of economic development up to the individual
states to resolve. Illinois resolved the issue in SWIDA,
and the City’s use of eminent domain here does not
meet the requirements of SWIDA.
The City claimed below that a long line of Illinois
cases has held that “governmental entities can acquire
property for economic development purposes regardless of the end use and location of the property.”
(C. 356-58) None of the cases on which the City relied
considered the Illinois Supreme Court’s ruling in
SWIDA. In light of the Illinois Supreme Court’s emphatic holding in that case that economic development
alone is not enough to establish a proper public use to
justify eminent domain, absent blight or a slum, and
the undisputed facts in this case that the Eychaner
property is neither blighted nor in a slum, the Circuit
Court’s error is clear.
The City argued below that defendant has not
challenged the constitutionality of the designation of
the property in a redevelopment area under the TIF
Act. (C. 358) The City confused the issue. Defendant is

72a
not challenging and has not challenged the expenditure of public funds or special public financing
arrangements. The constitutional requirement of
“public purpose” for such treatment is not at issue
here. What defendant has challenged is the lack of
any “public use” in the City’s taking of defendant’s
property by eminent domain to give it to Blommer
Chocolate Company in the name of economic redevelopment. That narrow question, focused only on the use
of eminent domain, is the issue here, and this case is
apparently the first in Illinois to depart from SWIDA’s
majority holding. By denying defendant’s Traverse,
the Circuit Court narrowed the impact of SWIDA
contrary to its holding, clearly erred, and should be
reversed.
* * **
Sections II to V Omitted

73a
SUPPLEMENTAL APPENDIX E
IN THE APPELLATE COURT OF ILLINOIS
FIRST JUDICIAL DISTRICT
————
No.13-1833
————
CITY OF CHICAGO, a municipal corporation,
Plaintiff-Appellee,
v.
FRED J. EYCHANER and UNKNOWN OWNERS,
Defendants-Appellants.
————
Appeal from the Circuit Court of
Cook County, Illinois
County Department, Law Division
No. 05 L 050792
The Honorable Rita M. Novak and
Margaret A. Brennan, Judges Presiding
————
BRIEF OF PLAINTIFF-APPELLEE
STEPHEN R. PATTON
Corporation Counsel of the City of Chicago
30 N. LaSalle St., Suite 800
Chicago, Illinois 60602
(312) 744-0468
BENNA RUTH SOLOMON
Deputy Corporation Counsel
MYRIAM ZRECZNY KASPER
Chief Assistant Corporation Counsel
JUSTIN A. HOUPPERT
Assistant Corporation Counsel
Of Counsel

74a
POINTS AND AUTHORITIES
NATURE OF THE CASE ............................................ 1
ISSUES PRESENTED ................................................ 1
JURISDICTION .......................................................... 2
STATEMENT OF FACTS ........................................... 2
ARGUMENT .............................................................. 17
I. THE CITY’S TAKING OF EYCHANER’S
PROPERTY IS FOR CONSTITUTIONALLY PROPER PUBLIC PURPOSES........... 19
U.S. Const. amend. V ........................................... 19
Ill. Const., art. I, § 15 ........................................... 19
Southwestern Illinois Development
Authority v. Al-Muhajirum,
318 Ill. App. 3d 1005 (5th Dist. 2001) .............. 19
City of Chicago v. Midland Smelting Co.,
385 Ill. App. 3d 945
(1st Dist. 2008).......................... 22, 24, 26, 27 n.2
Kelo v. City of New London,
545 U.S. 469 (2005)....................................passim
People ex rel. Gutknecht v. City of Chicago,
3 Ill. 2d 539 (1954) ................................ 22, 24, 25
Southwestern Illinois Development Authority
v. National City Environmental, L.L.C.,
199 Ill. 2d 225 (2002) .................................passim
65 ILLS 5/11-74.4-4(c) (2012) .............................. 24
Berman v. Parker,
348 U.S. 26 (1954) .......................... 24, 25, 27, 28
City of Chicago v. Barnes,
30 Ill. 2d 255 (1964) .......................................... 25
City of DeKalb v. Anderson,
43 Ill. App. 3d 915 (2d Dist. 1976) ................... 25

75a
Kelo v. City of New London,
843 A.2d 500 (Conn. 2004) .......................... 26-27
Hawaii Housing Authority v. Midkiff,
467 U.S. 229 (1984)..................................... 27, 28
Village of Round Lake v. Amann,
311 Ill. App. 3d 705 (2d Dist. 2000) ........... 27 n.2
Van Harken v. City of Chicago,
305 Ill. App. 3d 972 (1st Dist. 1999) ................ 28
County of Wayne v. Hathcock,
684 N.W.2d 765 (Mich. 2004) ........................... 29
City of Norwood v. Homey,
853 N.E.2d 1115 (Ohio 2006) ........................... 29
735 ILCS 30/1-1-1 et seq. (2012) .......................... 29
735 ILCS 30/99-5-5 (2012) ................................... 30
735 ILLS 30/5-5-5 (2012) ............................... .30-31
II. THE CIRCUIT COURT DID NOT
ABUSE
ITS
DISCRETION
BY
ALLOWING THE JURY TO CONSIDER
THE PMD-5 ZONING .................................... 31
Illinois State Toll Highway Authority v.
Heritage Standard Bank & Trust,
250 Ill. App. 3d 665 (2d Dist. 1993) ................. 31
Pedersen & Houpt, P.C. v. Summit Real
Estate Group, LLC,
376 Ill. App.3 d 681 (1st Dist. 2007) ................ 31
735 ILCS 30/10-5-60 (2012) ................................. 32
Department of Public Works & Buildings v.
Exchange National Bank,
31 Ill. App. 3d 88 (2d Dist. 1975) .................... .32
Department of Transportation v.
Amoco Oil Co.,
174 Ill. App. 3d 479 (2d Dist. 1988) ................. 32

76a
Department of Public Works &
Buildings v. Wolf, 414 Ill. 386 (1953) .............. 32
Galt v. Cook County,
405 Ill. 396 (1950) ............................................. 32
735 ILLS 5/7-121 (2004)................................. 32 n.4
Forest Preserve District v. Valente,
61 Ill. App. 3d 887 (2d Dist. 1978) ................... 33
Ill. Rev. Stat. 1975, ch. 47, para. 9.7 ................... 33
III. THE CIRCUIT COURT DID NOT
ABUSE
ITS
DISCRETION
BY
BARRING
EVIDENCE
OF
THE
PURPOSE OF THE TAKING ........................ 36
City of Chicago v. Anthony,
136 Ill. 2d 169 (1990) ........................................ 37
City of Chicago v. Riley,
16 Ill. 2d 257 (1959) .......................................... 38
Chicago Land Clearance Commission v. White,
411 Ill. 310 (1952) ............................................. 38
St. Clair County Housing Authority v. Quirin,
379 Ill. 52 (1942) ............................................... 38
Ill. Pattern Jury Instr.-Civ. 300.10 ..................... 38
Illinois State Toll Highway Authority v.
Heritage Standard Bank & Trust,
250 Ill. App. 3d 665 (2d Dist. 1993) ............ 38-39
IV. THE COURT’S RULINGS REGARDING
MaROUS AND THOUVENELL REFLECTED NO ABUSE OF DISCRETION .............. 40
A. It Was Not An Abuse Of Discretion To
Allow The City To Call Eychaner’s
Abandoned Experts ................................... 40
Ill. S. Ct. Rule 218 ................................................ 40
Ill. S. Ct. Rule 213 ................................................ 41

77a
Sohaey v. Van Cura,
158 Ill. 2d 375 (1994) ........................................ 41
Kurrack v. American District Telegraph Co.,
252 Ill. App. 3d 885 (1st Dist. 1993) ................ 41
B. The Circuit Court Did Not Abuse Its
Discretion By Limiting Eychaner’s
Cross-Examination Of MaRous To
Issues Addressed On Direct ...................... 41
Neal v. Nimmagadda,
279 Ill. App. 3d 834 (1st Dist. 1996) ..... 41, 42-43
City of Chicago v. Merton Realty,
99 Ill. App. 3d 101 (1st Dist. 1981) .................. 41
C. Denying The Request To Strike
MaRous’s Testimony Was Not An
Abuse Of Discretion................................... 44
Department of Business & Economic
Development v. Schoppe,
1 Ill. App. 3d 313 (2d Dist. 1971) ..................... 44
Department of Public Works &
Buildings v. Guerine,
19 Ill. App. 3d 509 (2d Dist. 1974) ................... 44
County of St. Clair v. Wilson,
284 Ill. App. 3d 79 (5th Dist. 1996) ............. 44-45
Simmons v. University of Chicago Hospitals
& Clinics, 162 Ill.2d 1 (1994) ........................... 47
V.

THE VERDICT WAS WITHIN THE
RANGE OF TESTIMONY AND FREE
FROM CLEAR AND PALPABLE
MISTAKE ........................................................ 48

City of Chicago v. Shell Oil Co.,
29 Ill. 2d 136 (1963) ......................................... 48
CONCLUSION .......................................................... 50

78a
NATURE OF THE CASE
Plaintiff-appellee City of Chicago filed suit seeking
to condemn a parcel of property owned by defendantappellant Fred J. Eychaner. Eychaner filed a traverse
challenging the constitutionality of the taking. The
circuit court denied that traverse, and this court denied
Eychaner’s petition under Illinois Supreme Court Rule
308 for interlocutory review of that decision. The
case proceeded to trial, and a jury awarded Eychaner
$2,500,000 in just compensation. Eychaner appeals.
No questions are raised on the pleadings.
ISSUES PRESENTED
1. Whether the circuit court properly held that the
City’s taking of Eychaner’s property for purposes of
economic development and prevention of blight was
constitutionally permissible.
2. Whether the circuit court abused its discretion
by allowing the jury to hear evidence related to the
property’s current zoning.
3. Whether the circuit court abused its discretion by
preventing the jury from hearing evidence regarding
the purpose of the taking.
4. Whether the circuit court abused its discretion by
allowing the City to call Eychaner’s abandoned expert
witnesses, by limiting cross-examination of one of
those experts, or by denying Eychaner’s motion to
strike that expert’s testimony after he revealed his
prior employment by Eychaner.
5. Whether the verdict was the result of clear and
palpable mistake.

79a
JURISDICTION
The circuit court entered judgment on the jury’s
verdict on February 11, 2013. C. 3572-74; A. 36-38.1
Eychaner filed a post-trial motion on February 21,
2013. C. 3635-47. The circuit court denied that motion
on May 15, 2013. C. 4119; A. 39. On June 10, 2013,
Eychaner filed a notice of appeal. C. 4120-22; A. 40-42.
This court has jurisdiction over this appeal from a
final judgment pursuant to Ill. Sup. Ct. R. 303.
STATEMENT OF FACTS
Planned Manufacturing District No. 5. The City’s
zoning code allows for the designation of an area as a
Planned Manufacturing District (“PMD”) as a means
to “foster the city’s industrial base”; “maintain the
city’s diversified economy”; “strengthen existing manufacturing areas”; “encourage industrial investment,
modernization, and expansion by providing for stable
and predictable industrial environments”; and “promote growth and development of the city’s industrial
employment base.” Municipal Code of Chicago, Ill. §
17-6-0401 (2014). In early 2000, the City’s Department
of Planning and Development (the “Department”)
proposed the creation of a new PMD number five
(“PMD-5”) within the City’s Chicago/Halsted Corridor,
a heavily industrial area located approximately one
mile northwest of the Loop. C. 138; 666-66(r); C. 885(r).
The area contained nine industrial firms, including
1

The record on appeal consists of seventeen, consecutively
paginated volumes of common-law record, which we cite as
“C. ___”; six, consecutively paginated volumes of supplemental
record, which we cite as “Supp. C. ___”; and eight volumes of
record of proceedings (numbered Volumes 18-25), which we cite
as “Tr. [volume] at [page(s)].” We cite the reverse side of record
pages as “___(r).” We cite the appendix to Eychaner’s opening
brief as “A. ___.”

80a
the printing and distribution center of the Chicago
Tribune (“Tribune”), a manufacturing plant of Water
Saver Faucet Company (“Water Saver”), a processing
plant of Blommer Chocolate Company (“Blommer”),
Lake Shore Tile and Marble, Lakeside Construction,
Warren Plumbing Company, FCCI Construction, and
Hercules Ironworks. C. 671(r). Together, these companies provided approximately 2,800 jobs, including
approximately 1,900 industrial jobs. Id. The proposed
PMD-5 also included a vacant lot owned by Eychaner
and located just north of Blommer’s plant at the southwest corner of Grand Avenue and Jefferson Street. C.
785-85(r).
As required by the City’s Municipal Code, Municipal
Code of Chicago, Ill. § 17-13-0703, the Department
held a community meeting on January 12, 2000 to
discuss the proposed PMD-5. C. 666. A Department
representative explained that the proposed PMD-5
was intended “to protect the 2800 jobs that are located
within its boundaries” and “to strengthen the industrial users in the area whose operations have been
threatened by recent residential encroachment.”
C. 666(r). All of the properties within the proposed
PMD-5 were “zoned with some kind of industrial
designation,” C. 669(r), and, accordingly, the uses
of the properties within the proposed PMD-5 had
“historically . . . been exclusively industrial,” id. The
area’s Alderman explained that recent residential
development nearby had resulted in increasing conflicts
between the new residential uses and the industrial
uses. C. 668-68(r). In particular, heavy truck traffic,
especially overnight, created conflicts with residents
who were trying to sleep. C. 670(r). The creation of
an exclusively manufacturing and commercial PMD
in the Chicago/Halsted Corridor would protect the
existing industrial users by creating a “buffer” around

81a
them to prevent additional conflicts arising from
continued residential development in the area. C. 679.
The City representatives also explained that the City
intended “to create incentives” to encourage the
remaining industrial users within the proposed PMD5 to invest in improvements and other developments
through the creation of a Tax Incremental Financing
(“TIF”) district in the same area pursuant to the
Illinois Tax Increment Allocation Redevelopment Act
(the “Act”), 65 ILCS 5/11-74.4-1 et seq. (2012). C.
671(r); C. 691(r)-92.
The City’s Plan Commission then held special hearings on March 16, 2000 and August 17, 2000 to
consider the proposed PMD-5, as required by the
City’s Municipal Code, Municipal Code of Chicago, Ill.
§ 17-13-0705. C. 717-17(r); C. 781-82. A Department
representative testified that the proposed PMD-5
would send “a clear message about our long-term
intentions for this area that it remain an industrial
and commercial area” and would prevent smaller
properties and vacant parcels within the area from
being developed for future residential uses. C. 718(r)19. Representatives from the Tribune and Water
Saver testified in support of the proposed PMD-5. C.
744-745(r); C. 749-49(r); C. 809-10. Representatives of
Blommer also appeared at the hearings, and, at the
first hearing, expressed their opposition to Blommer’s
inclusion on the southern edge of PMD-5 because of
concerns that PMD-5 would not provide a sufficient
buffer between Blommer and proposed residential
development immediately to the south of the plant.
C. 719(r)-25. At the second hearing, a Blommer
representative testified that Blommer had worked with
the City and the residential developer to formulate a
plan to create a buffer and to internalize Blommer’s
operations to alleviate truck traffic and noise that

82a
might conflict with nearby residential uses. C. 797(r)800. These plans satisfied Blommer’s concerns, and,
thus, Blommer withdrew its objection to its inclusion
in PMD-5. Id.
On September 27, 2000, the City Council passed an
ordinance adopting PMD-5. C. 885(r)-89(r). The ordinance stated, “It is the policy of the City of Chicago to
foster growth of the City’s manufacturing and commercial base to maintain a diversified economy,”
C. 885(r), and reiterated the City’s “commit[ment] to
the retention of existing manufacturing and commercial
firms and the development of modern facilities in the
City for these firms,” C. 885(r)-86. The ordinance
included a list of thirty-two permitted and twenty
special uses of property within PMD-5, which included
a range of industrial, commercial, and entertainment
uses. C. 887-88(r).
The River West TIF Plan and Project. The City also
identified the area as a potential TIF district under
the Act to encourage new development and investment
in the area and to combat “the decaying nature of
the infrastructure” and the presence of “buildings
which . . . are not necessarily at the highest level of
maintenance.” C. 671(r); C. 691(r). In the Act, the
General Assembly declared that the presence of such
“blighting factors” in municipalities across the state
endangers “stable economic and physical development,” and results in “blighted areas” and “areas
requiring conservation.” 65 ILCS 5/11-74.4-2(a). Both
“blighted areas” and “areas requiring conservation”
demand “excessive and disproportionate expenditure
of public funds,” and suffer from “inadequate public
and private investment, unmarketability of property,
growth in delinquencies and crime, and housing and
zoning law violations . . . together with an abnormal

83a
exodus of families and businesses.” Id. An area that
qualifies as a blighted area or a conservation area is
referred to as a “redevelopment project area.” Id. 5/1174.4-3(p).
Under the Act, a redevelopment project area is
defined as either a blighted area or a conservation area
depending on how many and to what extent certain
statutory blighting factors exist. A blighted area
exhibits five or more blighting factors “to a meaningful
extent” and “reasonably distributed” throughout the
redevelopment project area; a conservation area
exhibits three or more of those blighting factors and,
in addition, is an area in which at least fifty percent of
the structures are thirty-five years old or older. 65
ILCS 5/11-74.4-3(a), (b). Thus, conservation areas are
those that although not yet “blighted areas,” are
“rapidly declining and may soon become blighted areas
if their decline is not checked,” id. 5/11-74.4-2(a). To
prevent conservation areas from becoming blighted
areas, the General Assembly directed that “blighted
conditions need to be eradicated and conservation
measures instituted, and that redevelopment of such
areas be undertaken,” and declared such action was
“essential to the public interest.” Id. 5/1174.2(b).
To combat blighting factors in both conservation
areas and blighted areas, the Act empowers municipalities to acquire property by eminent domain, see
65 ILLS 5/11-74.4-4(c), and to create a commission to
make recommendations on designating redevelopment
project areas, adopting redevelopment plans, and undertaking redevelopment projects, id. 5/11-74.4-4(k). A
“redevelopment plan” is a “comprehensive program of
the municipality for development or redevelopment
intended by the payment of redevelopment project
costs to reduce or eliminate those conditions the

84a
existence of which qualified the redevelopment project
area as a “‘blighted area’ or ‘conservation area.’” Id.
5/11-74.4-3(n). In turn, a “redevelopment project” is
“any public and private development project in furtherance of a redevelopment plan.” Id. 5/11-74.4-3(o).
The Act requires public notice and hearings on proposals for redevelopment project areas, redevelopment
plans and redevelopment projects, id. 5/11-74.4-4(a),
and, before any public hearing, a municipality must
appoint a joint review board of community members,
which issues a recommendation on the proposal, id.
5/11-74.4-5(b). In 1991, in accordance with the Act, the
City Council established the Community Development
Commission (“Commission”) to accomplish everything
necessary for redevelopment, including acquiring property through condemnation. Municipal Code of Chicago,
Ill. § 2-124-020 to -060 (2014).
In September 2000, the Commission accepted for
review a redevelopment plan (“Plan”) prepared by
the Department regarding the proposed River West
Tax Increment Financing Redevelopment Area (“River
West Area”). C. 109-29. The 68-page Plan documented
the deteriorated condition of the area and the need for
redevelopment. C. 137-41.
Specifically, it stated, “The health and vitality of the
Loop is indirectly attributable to the strength of the
immediate vicinity . . . . [I]f the surroundings are
deteriorated or blighted, businesses and developers
are less inclined to invest nearby.” C. 138. “For this
reason, the City desires to maintain and strengthen
the areas surrounding the Loop, including the Project
Area.” Id. In addition to the deteriorated conditions in
the River West Area, the Plan also noted the problems
posed by new residential developments to existing
industry in the area: “The inherent incompatibility

85a
between new residents and existing industry and
commercial businesses can force these industries and
commercial businesses out of the area.” C. 139. The
Plan stated the City’s determination “that it is critical
to the overall land-use balance, and to the employment
and tax base of the City, to protect and enhance the
remaining industrial areas already in proximity to
the Loop.” Id. Thus, the goal of the Plan was “that
the entire Project Area be revitalized through a
coordinated public and private enterprise effort of
reinvestment, rehabilitation and redevelopment of
uses compatible with a strong, stable area . . . .” C. 144.
The Plan also included a detailed eligibility study
documenting the blighting factors present in the area.
C. 175-85. Those blighting factors included “deterioration of structures and surface improvements, presence
of structures below minimum code standards, excessive
vacancies, lack of community planning and lag in
growth of Equalized Assessed Value.” C. 175-76. And
these blighting factors were “reasonably distributed
through the entire Project Area,” in which “[n]inetyone (91) of one hundred three (103) buildings are
thirty-five (35) years of age or older.” C. 175. Thus, the
Plan concluded that the River West Area met the
requirements of a “conservation area,” and, on that
basis, qualified as a redevelopment project area. Id.;
C. 146. The Plan concluded that its implementation
would “benefit the City, its residents, and all taxing
districts by eliminating conditions that could become
blighted conditions, improving economic well-being,
and improving the community living, working and
learning environment.” C. 143.
After reviewing the Plan, testimony from the public
hearing, and the review board’s recommendation, the
Commission found that the River West Area “has not

86a
been subject to growth and development through investment by private enterprise and would not reasonably
be expected to be developed without the adoption of
the Plan,” C. 207, and recommended that the City
Council approve the Plan, designate the area a
redevelopment project area under the Act, and adopt
tax increment allocation financing in the area, C. 208.
The City Council followed the Commission’s recommendations in ordinances enacted on January 10,
2001. C. 132-36; C. 214-17; C. 222-24.
The Blommer Industrial Campus Project. When
Blommer expressed its opposition to its inclusion
on the edge of the proposed PMD-5 at the Plan
Commission hearing on March 16, 2000, it suggested
two solutions: either extending PMD-5 further south
to provide a buffer between Blommer and new
residential development or not including Blommer
within PMD-5 to allow it to sell its property more
easily if conflicts with the residents forced it to
relocate. C. 720-20(r). Blommer also expressed concern
about conflicts with nearby residents created by its
“seven days a week, 24 hours a day” operations. C. 721.
At the time, Blommer employed approximately 125
full-time employees at its Chicago plant and had plans
to expand its operations. C. 800. The alderman
representing the area immediately stated his desire
that Blommer remain and suggested finding a zoning
solution that would create “a sufficient corridor” to
prevent Blommer’s being “surrounded by residential
development.” C. 722(r). The Chairman suggested that
the Plan Commission could help Blommer through its
approval process for the proposed residential development. C. 724(r). The Plan Commission deferred its
vote on the proposed PMD to allow time for the City,
Blommer, and the residential developer to discuss a
solution. C. 766-67.

87a
Representatives of Blommer and the Department
met on March 27, 2000. C. 891-91(r). Blommer
requested the City’s assistance in creating a “larger
industrial “campus’ for truck staging by acquiring
several neighboring lots and vacating streets along its
plant. C. 891. Blommer also suggested that it would
“wall[] off’ its expanded campus from the residential
development to the south to enclose its operations
and “further reduce off-site noise impacts.” Id. The
Department suggested that the City could use TIF
funds “to help Blommer[] acquire the property they
want and for public infrastructure improvements to
better manage the flow of traffic in the area.” C. 891(r).
Blommer also communicated with the residential
developer, who agreed to cooperate in creating the
expanded industrial campus. C. 775-76. Blommer
believed that the proposed campus expansion “would
significantly mitigate the most important complaint
voiced by residents surrounding the boundaries of the
proposed PMD – traffic.” C. 955.
At a second hearing before the Plan Commission on
August 17, 2000, a Department representative testified
about the plan to aid Blommer “to internalize their
operations and minimize impacts on adjacent streets.”
C. 784. This plan included an agreement by the
residential developer “to dedicate a twenty-five foot
easement on the south side of Kinzie which will create
a landscape boulevard and a significant open space
buffer immediately south of the factory building.” Id.
A Blommer representative testified that Blommer had
always supported the concept of PMDs but had objected
to its inclusion in this particular PMD because it was
“right on the edge of’ it with a residential development
planned to the immediate south. C. 797(r)-98. Blommer
withdrew its opposition to the proposed PMD because
of the commitments by the City and the residential

88a
developer “to help [Blommer] create a buffer so that
[it] can really continue operations in the manner that
would not conflict with the other development around
the site.” C. 798(r).
In May 2001, Blommer submitted to the City a
redevelopment proposal to create an industrial campus
that would alleviate traffic congestion using a new
truck staging area on four acres of vacant and underutilized property to the north and east of Blommer’s
facility. C. 978-90. At this time, Blommer employed
approximately 150 employees in Chicago, including
115 employees in manufacturing jobs. C. 981(r).
Blommer’s proposed industrial campus would benefit
the City through “job retention and creation,”
“redevelopment of the Site,” and “long-term expansion
of the real estate tax base.” C. 981. The project would
also ensure PMD-5’s goal of “retention/expansion of
the City’s industrial base” while simultaneously serving
“as a ‘buffer zone’ between the existing industrial
area and residential development.” C. 982. Blommer
requested the City’s commitment of TIF revenue to
assist in the project’s costs, and requested the City
enter a Redevelopment Agreement that designated
Blommer as the redeveloper of the project site
pursuant to the Act. C. 980.
On February 21, 2002, Blommer offered to purchase
Eychaner’s vacant lot for S824,980. C. 1015. After
Eychaner rejected that offer, the Department sought
authority to acquire the lot. C. 1019. On May 14, 2002,
the Commission held a public meeting to discuss the
Department’s request for authority to acquire three
parcels of property surrounding Blommer’s plant, including Eychaner’s lot. C. 1024(r). Following the meeting,
the Commission recommended authorizing the acquisitions, C. 230, and the City Council subsequently enacted

89a
an ordinance implementing that recommendation,
C. 230-31. On June 19, 2002, the City Council found
that the acquisition of the properties was necessary
“for a redevelopment project in order to achieve the
objectives of the Plan,” C. 230, and for the “public
purpose of improving a commercially blighted area,”
C. 231.
On August 4, 2005, the City filed suit seeking to
acquire Eychaner’s lot through eminent domain. C. 28. On February 8, 2006, the City Council enacted an
ordinance appointing Blommer as project developer
for the acquired property and authorizing the execution of a Redevelopment Agreement between Blommer
and the City. C. 1041-42. The Redevelopment
Agreement recognized that the redevelopment project
would “encourage private development,” “enhance
local tax base,” “create employment opportunities,”
and “eradicate blighted conditions.” C. 1042(r). It also
recognized that Blommer would use the acquired
property to eliminate “obsolete land-use and building
layout” at its current facility and to alleviate “truck
traffic volume and congestion around the Existing Site.”
C. 1043. It required Blommer to carry out the project
in accordance with the terms of the Redevelopment
Agreement and the Plan, C. 1043, and to provide
the Department with written quarterly construction
progress reports and, upon request at completion of
the project, an updated survey of the improvements
made to the site, C. 1045(r). The Redevelopment
Agreement further required Blommer to covenant to
maintain no fewer than 100 full-time jobs at its facility
for five years from completion of the first phase of the
project and to retain no fewer than 150 full-time jobs
thereafter. C. 1054. Blommer also covenanted to
maintain its business within the City at the project

90a
site for five years after the completion of the first
phase of the project. Id.
The Litigation. Eychaner filed a traverse in the
City’s condemnation suit, asserting that the City’s
taking of his property to give it to Blommer for private
redevelopment was not a taking for a constitutionally
valid public purpose. C. 39-41. The circuit court denied
the traverse, C. 313-26; A. 16-29, and certified the
question of the constitutionality of the taking for
interlocutory appeal to this court, C. 571-72; A. 30-31.
This court denied Eychaner’s petition for interlocutory
review, C. 590, and the case proceeded to a jury trial
on the issue of just compensation.
Before trial, the circuit court denied Eychaner’s
motion in limine to bar evidence related to the PMD-5
zoning of the property. C. 1123; A. 32. The court
granted the City’s motion in limine to bar evidence
relating the purpose of the taking to the City’s
transferring the property to Blommer. Tr. 20 at 221.
As the witness schedule was finalized for trial,
Eychaner announced his intention to abandon and not
call two of his three expert appraisers. In response, the
City served supplemental Rule 213(f) disclosures
identifying those abandoned experts as trial witnesses, and the court denied Eychaner’s motion to
strike those supplemental disclosures as untimely.
Tr. 20 at 64. The court subsequently granted the
City’s motion in limine to bar Eychaner from crossexamining those abandoned witnesses on opinions not
elicited by the City on direct examination, Tr. 21 at
125, and granted Eychaner’s motion in limine to bar
evidence of the abandoned experts’ former employment by Eychaner, Tr. 21 at 58-59.
During a five-day trial, the jury visited the property
and heard from two controlled expert appraisers,

91a
Kathy Dart and James Gibbons, during the City’s
case-in-chief. Dart and Gibbons testified that there
was not a reasonable probability of rezoning the
property to residential use, Tr. 23 at 117; Tr. 24 at 25,
and that the highest and best use of the property was
industrial or commercial use consistent with the PMD5 zoning, Tr. 23 at 118; Tr. 24 at 26. Dart appraised
the fair market value of the property at $1,530,000, Tr.
23 at 118; and Gibbons appraised the property at
$1,400,000, Tr. 24 at 26.
The City also called Michael MaRous, one of Eychaner’s
abandoned expert appraisers, who testified that, assuming there was no reasonable probability of rezoning,
the highest and best use of the property was for
commercial purposes consistent with the PMD-5
zoning and that, under such conditions, the property’s
fair market value was $2,550,000. Tr. 22 at 29. Before
calling MaRous to the stand, the City’s counsel, with
Eychaner’s counsel present, informed MaRous of the
court’s ruling barring disclosure of his prior employment, Tr. 22 at 40, and, at a sidebar during MaRous’s
testimony, the court also instructed him to be careful
to limit his answers to the narrowly tailored questions
asked by the City’s counsel to avoid violating the pretrial ruling, Tr. 22 at 43-44. Despite these warnings,
on redirect examination, MaRous stated that one of
Eychaner’s corporations may have retained him to
appraise the property. Tr. 22 at 83-84. As a remedy
for this violation of the pre-trial ruling, Eychaner’s
counsel suggested that the court either strike MaRous’s
testimony in its entirety or allow Eychaner’s counsel
to ask MaRous about other opinions that had not
been addressed on direct examination. Tr. 22 at 89-90.
The court denied those requests and instead offered
a cautionary instruction that the jury should not
concern itself with the question who had retained

92a
MaRous. Tr. 22 at 92-93. Eychaner’s counsel agreed
with that instruction. Tr. 22 at 95.
Eychaner then called an expert land planner, Allen
Kracower, who testified that there was a reasonable
probability of rezoning the subject property to residential use. Tr. 22 at 196. Eychaner called a single expert
appraiser, Dale Kleszynski, who agreed with Kracower’s
opinion regarding the reasonable probability of rezoning to allow a highest and best use of multi-family
residential and opined that the property was worth
$5,100,000. Tr. 24 at 171; Tr. 24 at 209-10. On
rebuttal, the City called Eychaner’s other abandoned
expert appraiser, Joseph Thouvenell, who testified
that there was a reasonable probability of rezoning the
property for residential use and that the fair market
value was $3,600,000. Tr. 25 at 3-4. The City also
called a rebuttal expert land planner, Lawrence
Okrent, who testified that there was no reasonable
probability of rezoning the subject property based on
the long history of manufacturing zoning and uses of
the subject property and surrounding area. Tr. 25 at
89. At the end of this testimony, the jury returned a
just compensation award within the range of the
expert testimony in the amount of $2,500,000. C. 3502;
A. 33. Eychaner appeals. C. 4120-22.
ARGUMENT
The City condemned Eychaner’s vacant lot for
important, constitutionally permissible public purposes,
and the jury’s verdict was within the range of expert
appraisals. As we explain below, Eychaner has offered
no reason to upset that verdict. The taking was for the
valid public purposes of economic redevelopment, retention of industrial employment and tax bases, reduction
of land use conflicts, and prevention of blight.

93a
Additionally, none of the circuit court’s evidentiary
rulings was an abuse of discretion, either. The court
properly allowed the jury to consider the PMD-5
zoning of the property because that zoning designation
was not the project for which the property was taken
nor was there evidence that the City changed the
property’s previous manufacturing zoning to PMD-5
to lower the costs of acquiring the property. And the
court properly barred evidence relating the purpose of
the taking to the transfer of the property to Blommer
because the inherent prejudice outweighed the minimal probative value to the sole question before the
jury – the just compensation for the taking. Likewise,
the rulings involving MaRous’s and Thouvenell’s testimony were within the court’s discretion. All of the
issues involving those experts, of which Eychaner now
complains, were self-inflicted by his voluntary decision
to abandon MaRous and Thouvenell as trial strategy.
Because Eychaner had himself disclosed those experts
and their opinions, there was no unfair surprise or
prejudice to Eychaner when the City disclosed them as
well. As for limiting Eychaner’s cross-examination of
MaRous to opinions elicited by the City on direct, that
was a proper exercise of discretion because Eychaner
had abandoned MaRous’s other opinions and crossexamination on them would have exceeded the scope
of direct. Nor was there any basis to strike MaRous’s
testimony in its entirety following his testimony
regarding his prior employment. As the court recognized, the jury had heard sufficient, permissible
testimony regarding the origins of MaRous’s appraisal
report to infer his prior employment, and the court
issued a cautionary instruction.
Finally, the verdict was within the range of expert
valuations and was not the result of mistake because
the jury heard from multiple experts on both sides of

94a
the reasonable probability of rezoning issue and, thus,
had ample support for its verdict.
I. THE CITY’S TAKING OF EYCHANER’S
PROPERTY IS FOR CONSTITUTIONALLY
PROPER PUBLIC PURPOSES.
The United States and Illinois Constitutions allow
the City to take private property for public use if the
City pays the owner just compensation. U.S. Const.
amend. V; Ill. Const., art. I, § 15. The taking of Eychaner’s
vacant lot was for the public purposes of economic
redevelopment, retention of industrial employment
and tax bases, reduction of land use conflicts, and
prevention of blight. This court reviews the constitutionality of a taking de novo. E.g., Southwestern
Illinois Development Authority v. Al-Muhajirum, 318
Ill. App. 3d 1005, 1008 (5th Dist. 2001).
The taking of Eychaner’s property is part of a larger
effort to maintain and encourage manufacturing within
the City through the River West TIF Plan and Project
and PMD-5. The City created PMD-5 “to foster the
growth of the City’s manufacturing and commercial
base to maintain a diversified economy,” C. 885(r), to
retain “existing manufacturing and commercial firms,”
id., and, to encourage “the development of modern
facilities in the City for these firms,” C. 885(r)-86. The
City recognized the inherent land use conflicts between
traditionally manufacturing areas and new residential
developments near them. C. 783. To reduce these
conflicts and ensure industry remains in the City, the
City enacted PMD-5 zoning to create “a stable and
predictable land-use environment.” C. 886. PMD-5
was the result of a lengthy process of planning and
consideration. After the Department developed the
proposed PMD-5, it submitted the proposal to a community meeting, C. 666-711, to two special hearings

95a
of the Plan Commission, C. 717-67; C. 781-818, and
finally to the City Council, who ultimately enacted the
PMD-5 zoning ordinance, C. 885-89.
To provide industrial users within the PMD with
TIF Act financial support for expansion and improvements and to eliminate blighting factors in the
deteriorated area, the City also created the River West
Redevelopment Project Area pursuant to the Act. C.
132-36; C. 214-17; C. 222-24. Before enacting the River
West TIF project, the Department commissioned an
eligibility study that determined the area qualified
as a “conservation area” under the Act because five
blighting factors were present and at least fifty
percent of the buildings were more than thirty-five
years old. C. 174-85. The Department also commissioned the creation of the Plan, which proposed the use
of TIF revenue for “strengthening of the economic
vitality of the community, arising from the preservation of a cohesive district which supports the service,
business, employment and other needs of the Loop”
and “replacement of inappropriate uses, blight and
vacated properties with viable, high-quality developments.” C. 145. Like the PMD-5 proposal, the Plan was
subjected to a lengthy review process, including, a
public meeting, C. 133, two joint review board meetings, C. 134, a Commission hearing, id., and ultimately
consideration and passage by the City Council, C. 13236; C. 214-17; C. 222-24. To achieve the Plan’s goals,
the City Council authorized the use of eminent domain
to acquire parcels contained within the project area.
C. 136.
When Blommer objected that its location at the edge
of PMD-5 across from a proposed residential development would not afford it sufficient protection from the
land use conflicts the PMD intended to eliminate and

96a
would potentially force Blommer to leave the City,
the City worked with Blommer and the residential
developer to address those problems and ensure that
the goals of PMD-5 would be achieved for Blommer
and that it would not relocate its industrial jobs and
tax base. C. 783(r)-84. The plan for addressing these
issues included the residential developer’s commitment to creating a setback buffer between its residents
and Blommer’s plant and the City’s cooperation with
Blommer in creating an expanded industrial campus
to internalize its truck staging and other operations to
reduce truck traffic problems and noise. Id. In addition
to eliminating these land use conflicts, the plan
resulted in Blommer’s agreement to maintain its
operations with a minimum of 100 jobs in the City and
to expand its operations to create additional jobs. C.
1054. In exchange, the City agreed to assist Blommer
in acquiring three parcels necessary for its industrial
campus expansion. C. 1043. In authorizing those
acquisitions, including Eychaner’s vacant lot, the City
Council found their acquisitions “necessary for a redevelopment project in order to achieve the objectives of the
Plan,” C. 230, and “for the home rule public purpose of
improving a commercially blighted area,” C. 231.
Takings pursuant to a redevelopment plan and
aimed “to eliminate blight and promote economic redevelopment of the area” easily pass constitutional
muster. City of Chicago v. Midland Smelting Co., 385
Ill. App. 3d 945, 973 (1st Dist. 2008). As this court has
recognized, “[t]here is no dispute that these are valid
public purposes under which property may be acquired
by the use of eminent domain, regardless of the use
which may be made of the property after the redevelopment has been achieved.” Id.; accord, e.g., Kelo v.
City of New London, 545 U.S. 469, 484 (2005)
(“Promoting economic development is a traditional

97a
and long-accepted function of government.”); People
ex rel. Gutknecht v. City of Chicago, 3 Ill. 2d 539, 545
(1954) (“the redevelopment of slum and blight areas
. . . constitutes a public use and a public purpose,
regardless of the use which may be made of the
property after the redevelopment”) (internal quotation
omitted). The City’s taking of Eychaner’s vacant lot
falls squarely within these permissible public purposes
by achieving the retention of industrial employment
and tax bases, the reduction of land use conflicts, and
the prevention of blight in a conservation area under
the Act.
In arguing the contrary, Eychaner misplaces reliance
on Southwestern Illinois Development Authority v.
National City Environmental, L.L.C. (“SWIDA”), 199
Ill. 2d 225 (2002). In SWIDA, the Illinois Supreme
Court held that a taking for the sole purpose of giving
land to a privately owned raceway to increase its
parking capacity was not for a constitutionally permissible public purpose. Id. at 235. SWIDA is
inapposite for a number of reasons. To begin, the case
is entirely factually distinguishable from the taking of
Eychaner’s lot. The claimed public benefits in SWIDA
were the reduction of lines to enter the parking lots on
race days and an increased ability to cross safely from
parking areas to the track. Id. at 239. The supreme
court held that it was “unconvinced that these facts
alone are sufficient to satisfy the public use requirement” and that the taking amounted “to a private
venture designed to result not in a public use, but in
private profits.” Id. at 238-39. By contrast, the taking
of Eychaner’s lot for use in expanding Blommer’s
industrial campus serves multiple, public uses, including economic redevelopment of a conservation area,
maintenance and expansion of industrial employment
and uses within PMD-5, reduction of land use conflicts,

98a
and prevention of blight. In addition, SWIDA exercised its quick take powers at the race track’s request
solely to make the race track’s acquisition of the property easier, cheaper, and quicker. Id. at 241. “SWIDA
did not conduct or commission a thorough study of
the parking situation at [the racetrack]. Nor did it
formulate any economic plan requiring additional
parking at the racetrack.” Id. at 240. Unlike the taking
in SWIDA, the City’s taking occurred pursuant to the
carefully planned and legislatively approved PMD-5
and TIF plans and under a redevelopment agreement
pursuant to the Act. Indeed, the General Assembly has
expressly authorized takings in redevelopment project
areas under the Act, 65 ILCS 5/11-74.4-4(c), and
Eychaner has cited no authority, including SWIDA,
that has ever invalidated such a legislatively
authorized taking under the Act.
Moreover, Eychaner misreads SWIDA in asserting
that the City may not take his property to give it to
another private party for economic redevelopment if
his property is itself not blighted and will not be
available for public use. Eychaner Br. 11, 14-16. But it
is well established that the City may dispose of taken
property as it wishes, including conveying it to a
private party, so long as the taking was for a constitutionally permissible public purpose. E.g., Gutknecht, 3
Ill. 2d at 544-45; Midland Smelting, 385 Ill. App. 3d at
973; Kelo, 545 U.S. at 482; Berman v. Parker, 348 U.S.
26, 34 (1954). Indeed, SWIDA itself states, “Clearly,
private persons may ultimately acquire ownership of
property arising out of a taking and the subsequent
transfer of private ownership does not by itself defeat
the public purpose.” 199 Ill. 2d at 236. And SWIDA
nowhere held that elimination of blight is the only
permissible public purpose for taking property that is
transferred to another private party. Rather, SWIDA

99a
recognized that takings to eliminate blight are one
type of “[c]learly” permissible takings and that this
permissible purpose was not at issue in SWIDA because
the court was “not dealing with a taking for the
purpose of eliminating slums or blight.” Id. at 238.
Nor does SWIDA limit takings to property that is
itself blighted. The requirements for a proper taking
to prevent or eliminate blight were even not before the
SWIDA court. 199 Ill. 2d at 238. Moreover, a long line
of precedent holds that property may be taken if it is
located within a blighted area. E.g., City of Chicago v.
Barnes, 30 Ill. 2d 255, 257 (1964); Berman, 348 U.S. at
35; City of DeKalb v. Anderson, 43 Ill. App. 3d 915, 917
(2d Dist. 1976). As the Illinois Supreme Court has
explained, “Property may be taken which, standing by
itself, is unoffending, for the test is based on the condition of the area as a whole.” Barnes, 30 Ill. 2d at 257.
Nor must the government wait until the area in
which the property is located becomes blighted. Instead,
it may intervene if the area is deteriorating in a
manner that threatens to become blighted if conservation efforts are not taken. Gutknecht, 3 Ill. 2d at 545.
In Gutknecht, the supreme court held the taking of
property within a “conservation area” was permissible
to prevent future blight, specifically rejecting an
argument like Eychaner’s, Eychaner Br. 12-13, that
eminent domain may be used only for “the elimination
rather than the prevention of’ blight, 3 Ill. 2d at 545
(internal quotation omitted). The court stated, “we are
aware of no constitutional principle which paralyzes
the power of government to deal with an evil until it
has reached its maximum development.” Id.
Eychaner also makes much of the distinction purportedly drawn by the SWIDA court between public
purpose and public use, arguing that for a taking to be

100a
for public use it must allow the public access to the
property. Eychaner Br. 14-16. But, as this court has
expressly recognized, SWIDA stands for no such
distinction. Midland Smelting, 385 Ill. App. 3d at
971-73. In rejecting an argument virtually identical to
Eychaner’s, this court stated, “Contrary to Midland’s
argument, we do not believe that the focus of the
court’s decision in SWIDA was on the quantitative
measure of the degree to which the public would be
entitled to use the property.” Id. at 971. “For example,
the [SWIDA] court noted that ‘private persons may
ultimately acquire ownership of property arising out
of a taking and the subsequent transfer to private
ownership does not by itself defeat the public
purpose.’” Id. at 972 (quoting SWIDA, 199 Ill. 2d at
235-36). This court rejected the notion that SWIDA
intended to establish a bright-line test for public use
dependent on public access and instead had recognized
that permissible public use “could vary from case to
case.” Id. at 972-73. Eychaner attempts to distinguish
Midland Smelting as a case involving a “substitute
condemnation,” Eychaner Br. 14, but this court’s rejection of Eychaner’s reading of SWIDA did not turn on
the “substitute condemnation” at issue but rather on
its careful consideration of the SWIDA decision.
And this court is not alone in rejecting the reading
of SWIDA that Eychaner offers. In holding a taking for
economic redevelopment constitutionally permissible,
the Connecticut Supreme Court likewise refused to
read SWIDA as holding that transferring land for
private redevelopment cannot satisfy the public use
requirement. Kelo v. City of New London, 843 A.2d
500, 535 (Conn. 2004). The Connecticut court explained,
“In our view, the facts of [SWIDA] merely demonstrate
the far outer limit of the use of the eminent domain
power for economic development.” Id. Moreover, the

101a
dissent in SWIDA pointed out that the United States
Supreme Court decisions cited by the majority in
discussing “public use” had expressly rejected a requirement that taken property be put into use for the
general public. 199 Ill. 2d at 254 (Freeman, J., dissenting) (citing Hawaii Housing Authority v. Midkiff, 467
U.S. 229, 243-44 (1984); Berman, 348 U.S. at 34). And
in affirming the Connecticut court’s decision in Kelo,
the United States Supreme Court reexamined Midkiff
and Berman and reiterated that it “‘long ago rejected
any literal requirement that condemned property be
put into use for the . . . public.’” Kelo, 545 U.S. at 479
(quoting Midkiff, 467 U.S. at 244).2
Indeed, Eychaner virtually ignores the United
States Supreme Court’s post-SWIDA decision in Kelo,
citing it only for the truism that States remain free to
address the issue of economic redevelopment takings
differently under state law. Eychaner Br. 17. But this
sells Kelo’s effect on post-SWIDA takings law
dramatically short. Kelo not only rejected the use-bythe-general-public rule advanced by Eychaner, but it
also held that the taking of non-blighted property
within a planned redevelopment project area and
transferring it to a private party for purposes of
promoting economic development is constitutionally
permissible. 545 U.S. at 477-85. This is critical to the
2

Eychaner asserts that “the Appellate Court’s other postSWIDA cases have not overturned the rule dictated by the
SWIDA majority.” Eychaner Br. 13-14 (citing Village of Round
Lake v. Amann, 311 Ill. App. 3d 705 (2d Dist. 2000); Midland
Smelting, 385 Ill. App. 3d at 974). This makes little sense because
the appellate court could not “overturn” the supreme court’s
decision even if it wanted to do so. In addition, Amann pre-dates
the supreme court’s decision in SWIDA, and, as we explain, this
court expressly rejected Eychaner’s reading of SWIDA in
Midland Smelting.

102a
analysis because, in its pre-Kelo decision, the SWIDA
court relied on the United States Supreme Court’s
past takings decisions to reach the conclusion that a
taking for economic redevelopment by a private party
was unconstitutional; 199 Ill. 2d at 235-38 (citing
Midkiff and Berman); yet, three years later, the
United States Supreme Court relied on the same
precedents to reach the opposite conclusion, Kelo, 545
U.S. at 477-85. In addition, Illinois generally follows a
“lockstep approach” to constitutional interpretation in
which courts “follow[] the decisions of the United
States Supreme Court in cases where the Federal and
State constitutional provisions and issues are similar.”
E.g., Van Harken v. City of Chicago, 305 Ill. App. 3d
972, 982 (1st Dist. 1999).3 Thus, this court should
credit the United States Supreme Court’s post-SWIDA
decision in Kelo, to the extent it believes that SWIDA
otherwise applies.
In the face of these post-SWIDA developments,
Eychaner cites decisions by Michigan and Ohio courts
as evidence of an “emerging trend” of state court cases
recognizing the public use versus public purpose distinction that he reads into SWIDA. Eychaner Br. 17
(citing County of Wayne v. Hathcock, 684 N.W.2d 765
(Mich. 2004); City of Norwood v. Homey, 853 N.E.2d
1115 (Ohio 2006)). Despite Eychaner’s characterization, two state court decisions can hardly be called an
3

The Fifth Amendment, which applies to the States through
the Fourteenth Amendment, provides, “nor shall private property
be taken for public use, without just compensation,” and Article
I, § 15 of the Illinois Constitution provides, “Private property
shall not be taken or damaged for public use without just compensation as provided by law.” The only material difference
between the two provisions is the addition of the “or damaged”
clause in the Illinois constitution, and that clause is not at issue
here.

103a
“emerging trend,” particularly where they contradict
this court’s subsequent decision in Midland Smelting
and the United States Supreme Court’s decision in
Kelo. Indeed, Hathcock pre-dates the Supreme Court’s
Kelo decision and does not even mention SWIDA. As
for Homey, it does not rely extensively on SWIDA, but
cites it only for a passing quotation and as an example
of a taking that was “deemed not for public purpose,”
853 N.E.2d at 1137, 1140; nor does it anywhere
expressly adopt the public-use versus public-purpose
rule as Eychaner suggests. More important, these outof-state decisions should not detract from this court’s
decision in Midland Smelting or the Supreme Court’s
decision in Kelo.
Eychaner also cites the General Assembly’s postSWIDA enactment of the Eminent Domain Act (“EDA”),
735 ILCS 30/1-1-1 et seq. (2012), as evidence of the
General Assembly’s intent “to prohibit the use of eminent domain for economic development, except where
the property being condemned is itself blighted or a
slum.”. Eychaner Br. 15-16. But Eychaner’s reliance
on the EDA is both irrelevant and misguided. To
begin, Eychaner concedes – as he must – that the EDA
“is prospective only, and does not apply to the present
case,” id. at 16, because the EDA became effective on
January 1, 2007, 735 ILCS 30/99-5-5, and the City
filed its condemnation suit on August 4, 2005. In any
event, the EDA says nothing about the constitutional
standard governing takings but imposes additional
statutory protections, which do not apply to this 2005
taking. In addition, contrary to Eychaner’s assertion,
Eychaner Br. 16, the EDA does not limit takings for
economic redevelopment to property that is itself
blighted but instead, consistent with prior case law,
looks to whether the area as a whole has been
designated blighted or a conservation area. The EDA

104a
provides that “[i]f the exercise of eminent domain
authority is to acquire property for private ownership
or control and if the primary basis for the acquisition
is the elimination of blight,” the condemning agency
must prove “that the property to be acquired is located
in an area that is currently designated as a blighted
or conservation area under an applicable statute.”
735 ILCS 30/5-5-5(d) (emphasis added). Moreover, in
heightening the statutory standards for new takings
for economic redevelopment, the General Assembly
expressly recognized the continuing legitimacy and
validity of such takings under the Act. To this end, the
EDA specifically provides that its new requirements
“do not apply to the acquisition or damaging of property in furtherance of the goals and objectives of an
existing tax increment allocation redevelopment plan.”
735 ILCS 30/5-5-5(a-10). That section continues, “A
condemning authority may exercise the power of
eminent domain for the acquisition of property in
furtherance of an existing tax increment allocation
redevelopment plan as provided for by law in effect
prior to the effective date of this Act.” Id.
For these reasons, the City’s taking of Eychaner’s
property was for constitutionally permissible public
use, and the circuit court did not err by denying
Eychaner’s traverse challenging that taking.
* * **
Sections II to V Omitted

105a
SUPPLEMENTAL APPENDIX F
IN THE APPELLATE COURT OF ILLINOIS
FIRST JUDICIAL DISTRICT
————
No. 13-1833
————
CITY OF CHICAGO, a municipal corporation,
Plaintiff-Appellee,
v.
FRED J. EYCHANER and UNKNOWN OWNERS,
Defendant-Appellant.
————
Appeal from the Circuit Court of
Cook County, Illinois;
No. 05 L 050792;
Hon. Rita M. Novak and
Hon. Margaret A. Brennan,
Judges Presiding.
————
REPLY BRIEF OF DEFENDANT-APPELLANT
————
Thomas F. Geselbracht
DLA PIPER LLP (US)
203 No. LaSalle Street
Suite 1900
Chicago, Illinois 60601
(312) 369-4094
Counsel for Defendant-Appellant Fred Eychaner
ORAL ARGUMENT REQUESTED

106a
ARGUMENT
From its very beginning, the City’s brief has it
wrong. The City’s Nature of the Case (see City Br. 1) is
incorrect, because there clearly is a question on the
pleadings here: the constitutional authority of the City
to take private property in the name of economic
development to give the land to another private party,
when the land is neither blighted nor in a blighted
area. This Court should focus on that issue, and the
issues that fatally flawed the trial on just compensation, rather than on the City’s mischaracterizations,
straw men or irrelevant arguments.
Eychaner’s opening brief recited the undisputed
facts that frame the legal issues in this case (Eychaner
Br. 3), and even the City does not deny that these
facts are undisputed. The City is taking the Eychaner
property in order to sell it to Blommer Chocolate
Company; the City is using eminent domain to acquire
the Eychaner property; and the City has never found
the Eychaner property to be blighted, or a slum. These
simple facts set the context for the legal issues this
Court will decide in this appeal.
The City’s Statement of Facts is argumentative, and
several of its misstatements should be corrected to
keep the focus on the proper context. First, the City
misleads by discussing the statutory power “to combat
blighting factors” in conservation areas. (City Br. 7)
Conservation areas are by definition not blighted, as
even the City concedes. Id. The “blighting factors” are
simply a list of conditions compiled in the statute
which, by virtue of a statutory definition, create what
the statute calls a blighted area if enough are present.
Here, not enough are present to make the subject
property, or the area in which it lays, a blighted area
even under the statute.

107a
This statutory definition should be contrasted with
judicial construction of the meaning of the term “blight”
in the context of the use of eminent domain. Southwestern
Illinois Development Authority v. Al-Muhajirum, 318
Ill. App. 3d 1005, 744 N.E.2d 308 (5th Dist. 2001),
came after the Appellate Court’s decision but before
the Supreme Court’s decision in Southwestern Illinois
Development Authority v. National City Environmental,
LLC, 199 ll1.2d 225, 768 N.E.2d 1 (2002) (“SWIDA”).
In Al-Muhajirum, the Court associated “blight” with
slum-like conditions, and characterized such “derelict”
properties as “unoccupied,” “unattended,” “virtually
uninhabitable,” no doubt rat-infested” and “strewn
with rusted junk, discarded cans, bottles and garbage
bags.” 318 Ill. App. 3d at 1009, 744 N.E.2d at 311. “The
basic character of the locale is still one of ruin and
urban decay. The area is blighted.” Id. at 1009, 311312. It is this constitutional construction of the term
“blight” on which this Court should focus, not the
statutory definition which the City urges.
Second, the City emphasizes that the River West
TIF Redevelopment Plan documented “the deteriorated
condition of the area and the need for redevelopment.”
(City Br. 8) Deteriorated is not blighted. The redevelopment plan here concluded that the area could only
qualify as a conservation area, and that implementation of the plan might “eliminate conditions that could
become blighted conditions.” (City Br. 9) The redevelopment plan did not conclude that the area was blighted.
Based on the undisputed fact of no blight, and the
City’s motive and purpose to take the Eychaner property to give it to a favored private party, this eminent
domain case never should have been allowed to proceed.

108a
I. THE CITY OF CHICAGO MAY NOT USE
THE POWER OF EMINENT DOMAIN TO
TAKE FRED EYCHANER’S NON-BLIGHTED
PROPERTY TO GIVE IT TO BLOMMER
CHOCOLATE COMPANY IN THE NAME OF
ECONOMIC REDEVELOPMENT.
Continuing the misdirection in its Statement of
Facts, the City notes that the ordinance authorizing
the acquisition here identified the “public purpose of
improving a commercially blighted area.” (See City Br.
22, citing C. 231) The authorizing ordinance did not,
however, refer to any determination by the City that
the Eychaner property, or any locale containing the
Eychaner property, was blighted. The only support for
the authorizing ordinance was the River West TIF
Redevelopment Plan, which, as the City admits (City
Br. 9, 20), did not find the Eychaner property to be
within a blighted area – but only within a conservation
area, which by statutory definition is not blighted. 65
ILCS 5/11-74.4-3(b) (2000).
In any event, the City consistently conflates the
concepts of “public purpose” and “public use” (see, e.g.,
City Br. 17, 19, 23, 25-26), despite the clear admonition of the Illinois Supreme Court not to do so.
According to the City, “SWIDA stands for no such
distinction [between public purpose and public use].”
(City Br. 25-26) According to the majority in SWIDA:
SWIDA contends that any distinction
between the terms “public purpose” and
“public use” has long since evaporated and
that the proper test is simply to ask whether
a “public purpose” is served by the taking.
While the difference between a public purpose
and a public use may appear to be purely
semantic, and the line between the two terms

109a
has blurred somewhat in recent years,
a distinction still exists and is essential to
this case.
199 Ill.2d at 237, 768 N.E.2d at 8 (emphasis added).
Whatever public purpose might support public
financing here, there must be a public use to support
the exercise of eminent domain. Taking the Eychaner
property to give it to Blommer Chocolate Company is
not a proper public use.
Nor is taking the Eychaner property to give it to
Blommer Chocolate Company to prevent the mere
possibility of blight in the area at some undetermined
point in the future. The SWIDA exception is for the
elimination of blight, not the prevention of blight.
SWIDA at 238, 9 (defining an exception for “a taking
for the purposes of eliminating slums or blight”)
(emphasis added). The City’s repeated references to
the prevention of blight (see, e.g., City Br. 17, 23, 25)
thus miss the mark.
The City cites two cases as its principal authorities,
one from before SWIDA, and one from after. Like the
agency itself and Justice Freeman in dissent in
SWIDA, the City here relies on People ex rel. Gutknecht
v. City of Chicago, 3 Ill.2d 539, 121 N.E.2d 791 (1954),
to authorize a taking to prevent rather than to
eliminate blight. (City Br. 22, 24-25) In defining the
exception allowing the clearance and redevelopment
of slums and blighted areas in SWIDA, the Supreme
Court majority did not include prevention of blight, or
rely on Gutknecht. (See SWIDA at 238, 9) Economic
development and prevention of blight are the opposite
sides of the same coin. Improving the economy is the
same as preventing its decline. If SWIDA bars takings
for mere economic development, with an exception
only for eliminating actual slums and blight, then

110a
Gutknecht’s comment that takings may prevent blight,
where as of yet there is no blight, must be of dubious
continued validity. See, e.g., 99 Cents Only Stores v.
Lancaster Redevelopment Agency, 237 F.Supp.2d 1123
(C.D. Cal. 2001) (rejecting the prevention of “future
blight” as a proper public use or public purpose to
justify eminent domain; the position that “no redevelopment site can ever be truly free from blight because
blight remains ever latent, ready to surface at any
time” is “untenable” and “defies logic”).
The City also relies on City of Chicago v. Midland
Smelting Co., 385 Ill. App. 3d 945, 896 N.E.2d 364 (1st
Dist. 2008), but the very language employed by the
City here betrays its own argument. (See City Br. 22)
Takings aimed “to eliminate blight” may indeed easily
pass constitutional muster, Midland Smelting at 973,
389, but there is no slum or blight here to be eliminated. Midland Smelting construed SWIDA as focusing
“on the motives behind the taking and whether the
taking was in fact intended to benefit the public or,
rather, to benefit purely private interests.” Id. at 971,
388. Here, the City admits the motive – to give
Eychaner’s property to Blommer Chocolate Company
for Blommer’s private benefit. Midland Smelting said
the issue in SWIDA was “whether SWIDA exceeded
the boundaries of constitutional principles and its
authority by transferring the property to a private
party for a profit when the property is not put to a
public use.” Id. at 972, 389. Just like Midland
Smelting noted was the case in SWIDA, here the court
is “not dealing with a taking for the purposes of
eliminating slums or blight.” Id., citing SWIDA, 199
Ill.2d at 238, 768 N.E.2d at 9. Eychaner’s property is
being given to Blommer Chocolate Company for

111a
Blommer’s private profit. Midland Smelting cannot
justify departure from the holding of SWIDA.1
The City points to 65 ILCS 5/11-74.4-4(c) as its
statutory authority for an economic development
taking in a conservation area (City Br. 24), but the
statute cannot authorize what the Illinois constitution
forbids. The basic taking here — from Eychaner to give
to Blommer Chocolate Company — violates SWIDA,
and the City cannot fit the taking of non-blighted
property into the “slum or blighted” exception allowed
in SWIDA.
For misdirection, the City argues that the property
being taken need not itself be blighted if it lies in a
larger area that is blighted overall. In City of Chicago
v. Barnes, 30 Ill.2d 255, 257, 195 N.E.2d 629, 631
(1964), on which the City relies, the property being
taken was within an area designated by the City
as “slum and blighted,” and the test was the condition
of the area as a whole. (See City Br. 24-25) True
enough – but the City has never determined that the
Eychaner property is part of a blighted area. The River
West TIF Redevelopment Plan only found the area

1

The City also belittles the argument in Eychaner’s opening
brief that Midland Smelting is not applicable here because it was
a special case involving the unique concept of “substitute condemnation.” (City Br. 26) However, the City ignores the very
arguments it made itself in Midland Smelting, which noted in
that case: “The City, on the other hand, claims that the present
case is a proper use of substitute condemnation.” Midland
Smelting at 967, 385. Those arguments convinced this Court in
Midland Smelting that SWIDA was not at issue in that case:
“SWIDA did not involve substitute condemnation and therefore
the court did not have occasion to consider the unique issue before
this court.” Midland Smelting at 974, 391.

112a
containing the Eychaner property to be a conservation
area. Barnes is therefore not on point.
The City’s last few desperate arguments fail the
most basic principles of legal reasoning. First, the City
would have this Court follow the gloss placed on
SWIDA by the Connecticut Supreme Court in Kelo v.
City of New London, 268 Conn. 1, 843 A.2d 500, 535
(2004) (City Br. 27), instead of the dictates of the
Illinois Supreme Court in SWIDA itself. Illinois courts
are bound by the decisions of the Illinois Supreme
Court, not by the courts of other states.2 Mekertichian
v. Mercedes-Benz U.S.A., L.L.C., 347 Ill. App. 3d 828,
836, 807 N.E.2d 1165, 1171 (1st Dist. 2004) (“After our
supreme court has declared the law with respect to an
issue, this court must follow that law, as only the
supreme court has authority to overrule or modify its
own decisions.”). Second, the City would have this
Court follow the SWIDA dissent (City Br. 27), instead
of the holding of the court majority in that case. “[T]he
law makes the opinion of the majority the opinion of
the court . . .” Ellguth v. Blackstone Hotel, Inc., 408 Ill.
343, 347, 97 N.E.2d 290, 292 (1951).
Finally, the City urges this Court to follow the
United States Supreme Court decision in Kelo v. City
of New London, 545 U.S. 469, 162 L.Ed.2d 439, 125
S.Ct. 2655 (2005), which allows the use of eminent
domain for mere economic development, rather than
2

The Connecticut Supreme Court formulated a test far different from that of SWIDA, requiring only “public economic benefit
in order for the use of eminent domain for economic development
to pass constitutional muster.” 268 Conn. at 54, 843 A.2d at 536.
Even the Connecticut high court acknowledged that the law of
Illinois imposes “a more restrictive public use standard than
the purely purposive formulation followed by” Connecticut. 268
Conn. at 52, 843 A.2d at 535. Illinois law must control here.

113a
SWIDA, which forbids it. (City Br. 27-28) The City
argues that Illinois is in “lockstep” with the United
States Supreme Court, even though Kelo itself acknowledged that states are free to chart a narrower path in
this area and “impose ‘public use’ requirements that
are stricter than the federal baseline” (Kelo at 489,
457, 2668) – as SWIDA clearly has. However, the very
case on which the City relies – Van Harken v. City
of Chicago, 305 Ill. App. 3d 972, 982, 713 N.E.2d 754,
762 (1st Dist. 1999) – refused to follow the “lockstep
approach” because “[t]he Illinois Constitution provides
broader rights of due process than the United States
Constitution.” SWIDA remains the controlling law of
Illinois.
The taking of Eychaner’s property here because
some aldermen did not want Blommer Chocolate
Company to leave the City is not a proper public use.
No exception to the clear rule of SWIDA applies here.
The Traverse should have been granted, and this
eminent domain case dismissed. This Court should
reverse the judgment of the Circuit Court.
* * **
Sections II to V Omitted

